<html>
<title> - NWR MAINTENANCE BACKLOG AND FISH INTERRELATIONSHIP</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
           NWR MAINTENANCE BACKLOG AND FISH INTERRELATIONSHIP

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

       Maintenance Backlog at National Wildlife Refuges and the 
      Interrelationship of Bluefish, Striped Bass, and Forage Fish

                               __________

                     APRIL 21, 1997--MANAHAWKIN, NJ

                               __________

                           Serial No. 105-14

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 41-073                      WASHINGTON : 1997
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    Jim Saxton, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       NEIL ABERCROMBIE, Hawaii
WAYNE T. GILCHREST, Maryland         SOLOMON P. ORTIZ, Texas
WALTER B. JONES, Jr., North          FRANK PALLONE, Jr., New Jersey
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                Christopher Stearns, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 21, 1997......................................     1

Statement of Members:
    Saxton, Hon. Jim, a U.S. Representative from New Jersey; and 
      Chairman, Subcommittee on Fisheries Conservation, Wildlife 
      and Oceans.................................................     2

Statement of Witnesses:
    Able, Kenneth, Rutgers University Marine Field Station.......    34
        Prepared statement.......................................    88
    Atzert, Steve, Manager, Forsythe National Wildlife Refuge....     4
    Bergmann, Charles, Lund's Fishery, Inc., Cape May, NJ........    36
        Prepared statement.......................................   110
    Bittner, Frank C., President, New Jersey State Federation of 
      Sportsmen's Clubs (prepared statement).....................    78
    Cross, Jeffrey, Director, Sandy Hook Marine Research 
      Laboratory, National Marine Fisheries Service..............     6
    DeCamp, William, Jr., President, Save Barnegat Bay, Ocean 
      County Izaak Walton League.................................    26
        Prepared statement.......................................    73
    Donofrio, James A., Executive Director, Recreational Fishing 
      Alliance...................................................    40
        Prepared statement.......................................   106
    Dunnigan, John H., Director, Atlantic States Marine Fisheries 
      Commission.................................................    32
        Prepared statement.......................................    79
    Fote, Thomas P., Legislative Chairman, New Jersey Coast 
      Anglers' Association.......................................    37
        Prepared statement.......................................   101
    Koons, Joan, President, Board of Trustees, Alliance for A 
      Living Ocean...............................................    17
    McCloy, Thomas W., Administrator, New Jersey Marine Fisheries 
      Administration.............................................    18
    Rogers, John, Acting Director, U.S. Fish and Wildlife 
      Service, Department of the Interior........................     4
        Prepared statement.......................................    52
    Schaefer, Richard, Director, Office of Intergovernmental and 
      Recreational Fisheries, National Marine Fisheries Service, 
      Department of Commerce.....................................     6
        Prepared statement.......................................    62
    Shinn, Robert, Commissioner, New Jersey Department of 
      Environmental Protection...................................    18
    Streeter, Robert, Assistant Director for Refuges and 
      Wildlife, USFWS............................................     4


           NWR MAINTENANCE BACKLOG AND FISH INTERRELATIONSHIP

                              ----------                              



                         MONDAY, APRIL 21, 1997

        U.S. House of Representatives, Subcommittee on 
            Fisheries Conservation, Wildlife and Oceans, 
            Committee on Resources,
                                                    Manahawkin, NJ.
    The Subcommittee met, pursuant to notice, at 10 a.m. at 
Mill Creek Community Center, 1199 Mill Creek Road, Manahawkin, 
New Jersey, Hon. Jim Saxton (Chairman of the Subcommittee) 
presiding.
    Mr. Saxton. Thank you, everybody, for being here and thank 
you, especially, for being here on time so that we can begin 
this hearing on two subjects that are extremely important to 
all of us. The refuge operations and maintenance backlog will 
be part of this hearing, which obviously relates directly to 
the Forsythe Refuge and many other wildlife refuges around the 
country. We will also discuss the interrelationship among 
bluefish, striped bass, and forage fish, which is an ongoing 
topic of concern.
    Before we begin to discuss the wildlife refuge issue and 
the striped bass, bluefish, forage fish issue, we have with us 
this morning a good friend of mine, Mr. John Rogers, who is the 
acting director of the U.S. Fish and Wildlife Service, and with 
him is Will Goebel, G-O-E-B-E-L, who is a wildlife artist and 
some of his art was chosen last year for the Federal wildlife 
stamp.
    And John, let me just turn this over to you for just a 
moment, Mr. Director, and you have a presentation to make, I 
believe.
    Mr. Rogers. Thank you very much, Mr. Chairman. As you 
indicated, we do have a very important presentation to make 
this morning.
    The Fish and Wildlife Service for about six months has been 
looking for an appropriate opportunity to present you with a 
token of our appreciation for your ongoing interest in the Fish 
and Wildlife Service and National Wildlife Refuge issues.
    What we have is a copy of Will Goebel's winning duck stamp 
art from last year as a token of our appreciation. It is, of 
course, a wonderful piece of art, but it symbolizes both your 
district as well as the National Wildlife Refuge system. So 
it's a pair of surf scooters and the background is the historic 
Barnegat Light. It is the only duck stamp depiction that has 
contained any structures, certainly the only one to ever 
contain a historic structure. It is very important because one 
knows--everyone knows that hunters must have a duck stamp with 
them when they're waterfowl hunting, and the proceeds from this 
stamp go to purchase lands for the National Wildlife Refuge 
Systems, so it very nicely ties together both art and the 
wildlife world. And on behalf of the Fish and Wildlife Service 
I would like to present this to you.
    Will Goebel, the artist.
    Mr. Saxton. Will, welcome back to New Jersey. This is quite 
an honor for the people of the third congressional district, 
which includes, of course, Barnegat Light and Barnegat Bay. 
Those of you who have visited my office know that when you come 
in the front door you see a number of wildlife prints, 
particularly waterfowl prints, from a local organization, the 
Barnegat Bay Museum folks from Tuckerton, and if you wander on 
into my inner office you'll find another wall covered with 
wildlife waterfowl prints, and so this will make a great 
addition to the office of the third congressional district in 
Washington, D.C.
    So John, we thank you, and, Will, congratulations to you on 
your art having been selected. This is a great picture of sea 
ducks and Barnegat Lighthouse, and the print will be most 
appreciated by those who visit the office, 339 Cannon Building, 
incidentally, if anybody wishes to come and visit. So Will, 
thank you very much for your participation.
    All right, on a more official note, let me welcome all of 
you here today. The Subcommittees on Fisheries Conservation, 
Wildlife and Oceans will now officially come to order.

 STATEMENT OF THE HON. JIM SAXTON, A U.S. REPRESENTATIVE FROM 
      NEW JERSEY; AND CHAIRMAN, SUBCOMMITTEE ON FISHERIES 
               CONSERVATION, WILDLIFE AND OCEANS

    Mr. Saxton. We are meeting today to discuss two issues of 
great importance. The first issue is the operation and 
maintenance backlog in the National Wildlife Refuge System, and 
of course, we chose this area for a number of reasons, not the 
least of which is that the wildlife refuge is located within 
yards of here, and it, obviously, was named for my predecessor 
in Congress.
    The Edwin B. Forsythe National Wildlife Refuge was created 
in 1984 by Public Law 98-293. The act consolidated the Barnegat 
and Brigantine National Wildlife Refuges into a single refuge. 
Barnegat was created in 1967 and Brigantine in 1939. The Cape 
May National Wildlife Refuge was created in 1989.
    In 1995 the Forsythe and Cape May Refuges were placed under 
a unified management. These refuges are referred to 
collectively as the Jersey Coast Refuges. They were established 
to protect migratory birds, to protect and conserve wetlands, 
and for the conservation and protection of wildlife resources.
    This might be a good point for me to pause and to just say 
that, obviously, we are protective in the strictest sense of 
the word of the Wildlife Refuge System and continue to try to 
find ways to enhance it, both by enlarging it, and by acquiring 
uplands to protect the wetlands that are currently such an 
important part of the refuge system here in New Jersey.
    I have here a map, which I picked up a week ago today, when 
I visited for half a day, I guess, the wildlife refuge here, 
which is known as the Forsythe Refuge, and as John helps me 
hold this up, you can see what I'm sure look like little spots 
to you in the audience, but they are actually migratory birds, 
and each of these mi-

gratory birds indicates the location of a wildlife refuge 
someplace in our country.
    We're way up here in the north, and as you can see, as we 
move across the country, there are many refuges which the 
Federal Government finances for two basic purposes. One, of 
course, is for the benefit of wildlife. In case of the wildlife 
refuge, there are many species which habitate the area, but 
also, of equal importance, we also have a purpose of the 
wildlife, although it is called a secondary purpose, and that 
is for historic human use of the areas, and we believe, I 
believe in particular, that that is extremely important, 
because while it's important to have places for wildlife to 
live and to do well, it is equally important for us to be able 
to study that wildlife and to conduct historic uses of fishing 
and crabbing and hunting and other uses that are related.
    So we, generally, across the country, set aside 60 percent 
of the refuges strictly for use by wildlife and 40 percent for 
use by human beings as well as wildlife. And I think that's 
very important to point out as we move forward.
    The Forsythe Refuge currently contains 42,000 acres and has 
an approved land acquisition boundary of 60,000. Cape May 
contains 8,300 acres with an approved land acquisition boundary 
of 17,000 acres. Slightly more than $50 million has been spent 
to acquire property at the refuges. The administration's fiscal 
year 1998 budget requests $2 million for Forsythe and $3 
million for Cape May land acquisition from the Land and Water 
Conservation Fund.
    This is particularly important, and you'll hear me talk 
about this very often. The 42,000 acres which we currently have 
is extremely important. It includes some uplands, but a limited 
amount. I think it is vitally important. I believe that unless 
we acquire uplands which otherwise could be developed someday, 
that the very existence, as we know it, of the Forsythe Refuge 
and other refuges is at least in question and possibly 
threatened.
    Throughout the nation, and this is important, there is a 
backlog of operations and maintenance for refuges that is, to 
me, quite alarming. I am looking forward to hearing from our 
witnesses about specific problems throughout the refuge system 
and most particularly in the Forsythe Refuge. And incidentally, 
this is the second in a series of five hearings which we are 
holding in different parts of the country.
    I am also pleased to note that the Resources Committee is 
seeking an increase of nearly $9 million above the 
administration's request for refuge operation and maintenance.
    The second issue that we'll deal with, partly during the 
first panel, but then more completely later in the hearing, is 
the interrelationship among bluefish, striped bass, and forage 
fish. Bluefish and striped bass are migratory species of fish 
that are common along the U.S. east coast. Both are highly 
prized by anglers and for their fighting abilities, and both 
support commercial fisheries. Both species have also a long 
history of major population swings. Bluefish and striped bass 
require similar habitat and food supplies, and many of their 
food sources, including menhaden and blue crabs, support 
important commercial fisheries themselves. Many fishermen and 
fisheries scientists believe that the interaction of all these 
species is very important in their population trends and that 
these interactions are not taken into account in the current 
management policies.
    The purpose of the hearing is to examine the 
interrelationships between these important species, discuss the 
effectiveness of present single-species management plans in 
light of these interactions, and determine what further study 
will be required to address these issues.
    Let me just take care of one housekeeping chore. Over the 
past twelve years that I've served in Congress, I have received 
many requests by constituents of the Third District and other 
districts in the southern part of the State to come in and talk 
about wildlife-related issues. And without fail, I believe I 
have tried to do so, both in my office and in public meetings 
and hearings around the district.
    Today is different. Today, while the public is invited to 
be here, we have tried to assemble a series of witnesses who 
deal with these issues in their professions on an ongoing 
basis. The purpose of today's hearing, therefore, is to hear 
from these witnesses, and while we would like to hear from 
members of the public today, we are able to do so only in 
writing, because of time constraints. If there are, at the same 
time, members of the public who feel a burning desire to help 
us with information, I will be more than happy to schedule 
additional meetings in the very near future.
    Also, let me just say that we are being broadcast live on 
radio, so, witnesses, I just wanted to mention that, so that 
you are all aware of it.
    Let me move now to our first panel of witnesses, Mr. John 
Rogers, the acting director of the U.S. Fish and Wildlife 
Service, which, of course, is housed within the Department of 
Interior. John will discuss with us, in his opening statement, 
the issues involving the Forsythe and other refuges around the 
country and the maintenance backlog. And also on the first 
panel, and this is the only panel that is divided between the 
two issues, is Mr. Richard Schaefer, the Chief of the Office of 
Intergovernmental and Recreational Fisheries, National Marine 
Fisheries Service, which is located, not in the Department of 
Interior, but the Department of Commerce.
    I would also just like to mention that there is a little 
light panel with a red, yellow and green light. We have put 
that there for kind of a guideline only. If you run over into 
the red light district please try to wrap your comments up when 
the red light comes on. However, if you run over, that's all 
well and good.
    So John, thank you for being here. Why don't you begin at 
this point with your discussion of your perspective on the 
refuge issues that we are here to discuss this morning.

   STATEMENTS OF JOHN ROGERS, ACTING DIRECTOR, U.S. FISH AND 
 WILDLIFE SERVICE, DEPARTMENT OF THE INTERIOR; ACCOMPANIED BY 
 ROBERT STREETER, ASSISTANT DIRECTOR FOR REFUGES AND WILDLIFE, 
  AND STEVE ATZERT, MANAGER, FORSYTHE NATIONAL WILDLIFE REFUGE

    Mr. Rogers. Thank you, Mr. Chairman, and thank you for 
inviting us to be here today to discuss the maintenance backlog 
facing the Fish and Wildlife Service's National Wildlife Refuge 
System.
    I'm accompanied by Dr. Robert Streeter, Assistant Director 
for Refuges and Wildlife, and Mr. Steve Atzert, manager of the 
Forsythe National Wildlife Refuge.
    For nearly a century the National Wildlife Refuge System 
has been one of America's greatest treasures. From a single 
island off the coast of Florida set aside by Theodore Roosevelt 
in 1903, the system has grown to 509 refuges, covering more 
than 92 million acres. It is the world's largest system of land 
set aside exclusively for wildlife conservation. The very 
existence of the system and the 30 million people who visit it 
each year is a reflection of the deep love and respect 
Americans have for wild creatures and wild places.
    Any system of lands, of course, though requires 
maintenance, and the National Wildlife Refuge System is no 
exception. If we want to maintain and enhance biological 
resources, while at the same time accommodating the public's 
growing appetite for wildlife-dependent recreation, we must be 
willing to make an investment in these lands and the facilities 
on them.
    Unfortunately, over the years we have not committed the 
necessary financial resources to properly maintain the refuge 
system, and we are reaping the consequences of those actions 
today. We have more than $4.5 billion in assets on national 
wildlife refuges, including thousands of water management 
facilities, 2,700 miles of dikes, 6,500 miles of roads, and 
more than 1,000 buildings.
    Many of these facilities are in poor condition because of a 
long history of limited funding for maintenance, as the 
Department of Interior's Inspector General pointed out in its 
1992 audit. As a result, we currently have a maintenance 
backlog of $505 million.
    The Service's 2,200 refuge employees are as dedicated a 
group of people as you will find in the Federal Government, but 
sometimes their dedication needs an assist from a backhoe. 
Several private industry studies indicate that annual 
maintenance reinvestment rates, ranging from 1.5 to 4 percent 
of the value of the capital assets, is necessary to maintain 
those assets.
    This would indicate a minimum amount of $67.5 million 
should be applied annually to arrest the growth rate of 
maintenance backlogs. The fiscal year 1998 funding request for 
this routine maintenance is $31.7 million.
    In addition to increases in its budgets for annual 
operational maintenance, substantial increases are needed 
disbursed over a reasonable period to address the backlog 
itself. The fiscal year 1998 budget request for this is $33.8 
million, $10 million above fiscal '97 as a start in addressing 
these needs.
    Deferring maintenance and allowing backlogs to accumulate 
costs the taxpayer more in the long run. Facilities that are 
not maintained properly deteriorate faster and generally use 
more energy than properly maintained ones. They need to be 
replaced long before they would have to be if they were 
maintained properly. To use an analogy, it's like not changing 
the oil in your car. Saves a little money in the short run, but 
costs a great deal in the long run.
    Likewise, as these facilities deteriorate the cost of 
repairing and replacing them increases. More important, 
delaying maintenance hinders our refuge manager's ability to 
manage wildlife for the ben-

efit of all Americans, and it reduces our ability to open 
refuges to wildlife-dependent recreation.
    The 1992 departmental audit, I mentioned a minute ago, 
found that because of budget shortfalls the service was not 
maintaining refuges in a manner that would effectively enhance 
and protect wildlife habitat or provide a safe and aesthetic 
experience for visitors.
    Americans spend tens of billions of dollars each year on 
wildlife-dependent recreation supporting hundreds of thousands 
of jobs. Many communities around wildlife refuges depend on 
visitors' dollars to bolster their economies. The gradual 
deterioration caused by poor maintenance of refuge facilities 
ultimately will be felt by these communities.
    We realize that this is an era of tight budgets, but we are 
doing what we can to improve the way we use the funds we do 
have. For example, we are developing comprehensive management 
plans for our refuges. These plans define objectives, document 
the status of resources, and provide a blueprint for refuge 
management. The 1998 budget request includes an increase of 
just under $2 million to allow the completion or initiation of 
14 new plans, covering 29 refuges, including one for the 
Forsythe Refuge that Mr. Atzert manages.
    The ingenuity, energy, and enthusiasm of our employees have 
carried us far, but the reality is that human capability must 
be matched with material, with equipment, and with horsepower. 
Our employees work hard to manage a natural national treasure 
that is cherished by millions of Americans, and they need and 
deserve the funds to do the job right.
    Thank you, Mr. Chairman, for the opportunity to appear this 
morning. I'd be happy to answer any questions, and if I can't, 
I know I've got plenty of able help.
    [The prepared statement of Mr. Rogers may be found at end 
of hearing.]
    Mr. Saxton. Thank you, John. I'm tempted to ask questions 
at this point, but I think what we'll do is follow standard 
procedure and move over to hear from Dick Schaefer. Dick, thank 
you for being here this morning. You may proceed.

      STATEMENT OF RICHARD SCHAEFER, DIRECTOR, OFFICE OF 
 INTERGOVERNMENTAL AND RECREATIONAL FISHERIES, NATIONAL MARINE 
   FISHERIES SERVICE, DEPARTMENT OF COMMERCE, ACCOMPANIED BY 
JEFFREY CROSS, DIRECTOR, SANDY HOOK MARINE RESEARCH LABORATORY, 
               NATIONAL MARINE FISHERIES SERVICE

    Mr. Schaefer. Thank you, Mr. Chairman. I appreciate this 
opportunity to appear before you and your committee this 
morning to address the public interest in possible stock 
interactions between bluefish and striped bass, and other 
related concerns.
    At this time, I would also like to introduce Dr. Jeffrey 
Cross, who sits on my left, who is the Director of the Sandy 
Hook Marine Research Laboratory of the National Marine 
Fisheries Service. Dr. Cross is accompanying me because of his 
scientific expertise in several of the areas intended to be 
addressed by your hearing.
    Because of limited time, I will keep my remarks very brief 
and will simply summarize much of what is already contained in 
my written testimony which you have in your possession. And, in 
that regard, Mr. Chairman, I would request that you allow my 
written testimony to be entered into the public record?
    Mr. Saxton. Without objection.
    Mr. Schaefer. Thank you, Mr. Chairman.
    Anecdotal assertions about alternating cycles of striped 
bass and bluefish abundance can be found in the popular 
literature well back into the last century. Interest in this 
issue, then, is hardly anything new. However, there exists 
little hard quantitative data to validate these assertions, and 
even less scientific evidence that would suggest cause and 
effect with respect to these anecdotal observations.
    Therefore, the issue remains open to initiate scientific 
inquiry that might shed some light on this matter. In that 
regard, we are pleased that, through your efforts and that of 
your Committee, Congress has seen fit to provide $785,000 to 
the National Marine Fisheries Service in its fiscal '97 budget 
to look further into the matter of striped bass/bluefish 
interactions.
    Further, it is my understanding that our Northeast 
Fisheries Science Center in Woods Hole, Massachusetts is 
currently in the process of transferring much of that 
appropriation to Rutgers University under a cooperative 
agreement to carry out a considerable portion of those initial 
investigations.
    I might add, Mr. Chairman, that I can't think of a more 
outstanding academic institution to assist in carrying out such 
studies. Of course, simply because I'm a native of New Jersey 
and an alumnus of the University, I wouldn't want you to think 
my view is biased in any particular way. But oh, if they could 
only play football and basketball, too.
    On the matter of striped bass and bluefish foraging, and 
the abundance and availability of forage fishes, I also have 
little to offer. Both species are primarily sight feeders and 
feeders of opportunity. That is, they will eat just about 
anything that is easily available to them when they are hungry.
    Earlier in my career, when I was working as a fisheries 
scientist, I conducted feeding habit studies on both whiting 
off New Jersey, and on striped bass along the south shore of 
Long Island, New York. I found that whiting fed primarily on 
themselves; that is, they are cannibalistic. With respect to 
striped bass, I found that they feed primarily on very small 
crustaceans in the spring and on a wide variety of fin fishes 
in the fall.
    As far as bluefish are concerned, my own anecdotal 
observations are that one should not dangle any valued body 
parts in the water when that species is in a feeding frenzy. It 
is documented, for example, that, on occasion, some people in 
Florida have been bitten by bluefish while bathing in the 
Atlantic surf.
    And with that, Mr. Chairman, I would conclude my opening 
remarks and stand ready to answer any questions you might have 
for me. Thank you very much.
    [The prepared statement of Mr. Schaefer may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much. What I'd like to do is to 
go back to subject one, if I may, and this will not be the 
pattern of the hearing, incidentally. Once we finish with these 
witnesses, we will move on to others who are expert, and we 
will divide the subjects into two separate panels. But let me 
ask John, the popular notion, at least in many public sectors, 
when it comes to wildlife refuge management, is that there is 
42,000 acres in terms of the Forsythe Refuge, and that it is 
land, that it was acquired, and it's wetlands, and it's out 
there, and somehow it takes care of itself.
    Would you or one of the folks who are with you explain in 
some detail the activities that the Fish and Wildlife Service 
undertakes in order to keep a refuge in good operative 
condition and how it involves the public at the same time?
    Mr. Rogers. Yes, Mr. Chairman, we can, I'm sure, engage in 
considerable discussion on this issue. A piece of land that 
serves as habitat for wildlife, back in historic times, may 
have been left alone because of the entire ecosystem of which 
it was a part had natural--was naturally and normally 
functioning. Today, unfortunately, national wildlife refuges 
are islands, many times in a sea of agriculture, often in a sea 
of urban environment. At any rate, they're parts of 
fundamentally changed systems. Thus, the Fish and Wildlife 
Service or any manager of wildlands, must continually and, at 
their own hands, mimic or duplicate or otherwise encourage 
natural processes.
    Water regimes are one of the most important that comes to 
mind. We have, as I mentioned earlier, thousands of water 
control structures that attempt to create impoundments where 
impoundments, natural lakes, have been destroyed that mimic 
tidal flow in other areas so that the marine creatures, 
estuarine creatures can have access to freshwater.
    We do a lot of prescribed burns in areas where--that were 
normally subject to natural fires, and with our country's 
history of fire suppression, natural fire regimes have been 
altered. One of the biggest and most--and least known impacts 
on wild systems is the impact of exotics. Exotic plants gobble 
up thousands of acres per year on our national wildlife refuge 
system, and they must be sometimes individually controlled, and 
in other areas we have to both create, develop, and utilize, 
either biological controls or other controls of noxious 
invasive plant species, as well as animal species in some 
areas.
    So then to make the areas accessible and safely accessible 
to the public, we must maintain road and trail systems, visitor 
centers, other use facilities which require an extensive 
infrastructure to do what we think is a very important job, and 
that is, make these areas available when and where compatible 
with the wildlife mission to the American public.
    Mr. Saxton. Thank you. One of the primary reasons that 
we're here today is to use the Forsythe as an example so that 
we can highlight for others who don't, perhaps, focus on these 
issues as closely as we do, the importance of proper 
management.
    Now, as I understand it, and please feel free to answer 
this in any way you choose, the Forsythe Refuge, many years 
ago, was a natural estuarine system, and that many of the 
activities that go on that benefit wildlife today are efforts 
and the expenditure of funds that try to duplicate as much as 
humanly possible an estuarine system similar to the one that 
was there many years ago, so that particularly migratory birds 
will have an atmosphere in which they can, not only survive, 
but propagate and feel like they are truly at home in a system 
like the one that used to be here.
    Would you, or one of the people who are with you, explain 
what it is that we do and how difficult it is?
    Mr. Rogers. I'd be happy to do that, Mr. Chairman. It's 
kind of like the TV lawyer shows have asked and answered. You 
came very close to what is necessary, and my best answer is to 
defer to the expertise of Mr. Atzert.
    Mr. Saxton. We're going to hear from Steve Atzert, who is 
the refuge manager at Forsythe.
    Mr. Atzert. Yes, Mr. Chairman. Is this the appropriate--OK. 
Good.
    First, I'd like to talk a little bit about what's happened 
to a lot of our coastal streams along the Jersey shore in the 
last 50 years. We've had a lot of lagoon developments. Where 
previously the streams would sort of meander through a tidal 
marsh, allowing freshwater and brackish salt water to mix 
together and create a very good environment with lots of 
flushing to provide food coming in and then flushing materials 
out for fish to use back that might be in the deeper waters, 
over the years these lagoon impoundments have basically 
destroyed a lot of these tidal exchange areas. They've created 
many deep areas, deep and shallow areas, filled in other areas, 
so that we do not have a lot of the brackish water exchange, 
interchange areas that we used to have.
    That's one of the reasons that we have the Brigantine 
impoundments and why they're so important to maintain, is that 
a lot of these shallow streams just don't exist anymore.
    Mr. Saxton. Now, impoundments are areas that have been 
walled off through the use of levies and dikes and----
    Mr. Atzert. Right, it's a fancy name for an artificial 
lake.
    Mr. Saxton. For an artificial lake. Now, that's necessary 
and--as I understand it, because it used to be, as you just 
described, that there were--we'll disregard that for the 
question and answer period. For those who can't see, we have 
this red light system that goes on, and we've been talking 
about this issue for five minutes, but we're going to go on 
anyway.
    Historically, salt water and freshwater merge in an 
estuarine system. And when that happens the tide comes in, and 
the salt water floods an area, and the tide goes out, and 
freshwater returns, and as the water level goes up and down 
there are certain effects that that causes twice a day.
    Mr. Atzert. Correct.
    Mr. Saxton. Can you describe that?
    Mr. Atzert. All right, well, one of the most important 
things about salt marshes, that they are about the most 
productive ecosystem, ecocommunity in the world. They put your 
Iowa corn fields to shame. There's a lot of primary production 
going on there.
    When the tide comes up, some of the materials will get 
suspended and then get flushed out with outgoing tide, and it 
could be little shrimps, could be, you know, little copepods. 
The young bluefish out in the bays will be eating those things 
up, the her-

rings. It's like having a slug of food coming out of the marsh 
twice a day.
    You need the spartina marshes to produce that. You know, 
once you divide it up into a lagoon development you have lost 
that. So that's one reason that the tidal marshes are so 
important. They're very, very productive, and it's like a twice 
daily slug of food going out to the back bays.
    Mr. Saxton. Now, the Forsythe was established in 1939, and 
we've been enlarging it off and on ever since. My understanding 
is that that is primarily because the Forsythe has become a 
kind of a haven which migratory waterfowl use as a place to 
stop and eat on their way north, and then again on their way 
south in the fall; is that correct?
    Mr. Atzert. That's correct, and the impoundment at 
Brigantine is one of the biggest attractors--attractions that 
we have. We'll have 30,000 snow geese in there in the fall. 
Very important for them. They'll stay usually untill about the 
middle of December and then fly farther south. During that time 
they are utilizing the spartina grasses that are outside of the 
impoundment, but they do love to use the freshwater environment 
or the brackish water environments in the east pool and the 
west pool for loafing areas.
    Mr. Saxton. So the area known to you as impoundments and to 
those of us who are visitors of the area, we can call the 
impoundments, too, but to where I go to see a lot of pretty 
birds, those areas actually are not there just so people can 
drive their cars out those dikes and those levies. They're 
there so that wildlife, food source, and other habitat aspects 
can be enhanced and protected.
    Mr. Atzert. Absolutely. That was the original reason. It's 
just that when you build a dike, and they have to be fairly 
substantial out there, you have a place to put a road, not only 
for maintenance use but for people to get out and actually see 
what we are doing on their behalf.
    Mr. Saxton. Now, Acting Director Rogers testified that our 
national maintenance backlog is over a half a billion dollars, 
$505 million to be precise. And I suspect that there are some 
projects at the Forsythe which you would think could be 
undertaken if you had more resources.
    Mr. Atzert. You're correct on that, Mr. Chairman.
    Mr. Saxton. And some of those activities that you could 
undertake would be fairly important to maintain the system that 
we have just very carefully tried to describe.
    Would you like to tell us about some of those projects?
    Mr. Atzert. Certainly.
    As you are aware, we are finishing off our rehabilitation 
of the west impoundment and the east impoundment, hopefully 
this year. And when that is completed we're going to go and--
well, I shouldn't say we're going to--our next highest priority 
is to re-slope the north dike, which is an integral part of the 
west impoundment area and also an integral part of our 
automotive tour route that is used by almost, I think, about 
170,000 people each year.
    What has happened over the years is that the marshes to the 
north of the impoundment have received substantial use by the 
snow geese and have created mud flats which are excellent 
habitat type for the shore birds when they come through in the 
spring, but at the same time, it does create an area where 
waves can be kicked up by the wind, and over the years the 
water erosion has been gnawing away at the north dike.
    We now have cut banks. The dikes are usually supposed to be 
sloped at a three to one slope. We now have a little beach and 
then a--maybe a two- or three-foot vertical drop in some areas.
    Mr. Saxton. Now, in this case Mother Nature has given us an 
abundance of snow geese, and the snow geese have come through 
the area, and they have transformed what was previously, I 
guess you could call it, a naturally vegetated breakwater and 
have transformed it into a mud flat, which is fine, because 
that's part of Mother Nature's process as well. But the north 
dike of the impoundments has now become the breakwater and is 
washing away.
    Mr. Atzert. Correct. That's absolutely correct.
    Mr. Saxton. And how much money is needed for this project?
    Mr. Atzert. We estimate about $200,000.
    Mr. Saxton. $200,000, and that would be used for fill known 
as rip-rap?
    Mr. Atzert. Well, we would probably use our own--try to get 
one of our own excavators to re-slope the dike, pulling the 
trail in from the former borrow pit or borrow ditch that was 
along the north slope, and then come back and set some rip-rap, 
which is stone, probably one- to two-foot size rip-rap down to 
the base to soak up the wave action.
    Mr. Saxton. And if this is not accomplished then someday, 
maybe not too far into the future, the north dike could break 
through.
    Mr. Atzert. Correct, and then we have to, you know, fix the 
break, which is first of all additional moneys. Second of all 
we would use our ability to manage the water in the west 
impoundment for the sake of, let's say, spring migratory shore 
birds coming through and then in the fall for the ducks coming 
through.
    What we try to do is we'll be using one side of the west 
impoundment as a reservoir and the other side as a moist soil 
unit to stimulate marsh vegetation to grow, and as the summer 
proceeds, this vegetation would grow higher and higher, and we 
would flood it. Then in September, just before the ducks come 
back, so that they could swim around and use the pantry; if the 
area's not flooded the ducks can't use it.
    Mr. Saxton. Now, getting away from the north dike for just 
a moment, without being specific with everything you need to 
do, in terms of these kinds of projects, is the backlog of work 
that needs to be done on these kinds of projects which--and the 
activities which you undertake to keep the refuge operable and 
efficient, are there other projects? And if so, what are the 
nature of them, and if you could just describe that briefly.
    Mr. Atzert. One that would be high on our list would be to 
rehabilitate the dike at Lilly Lake. That dike was built back 
in the '20's. About five to seven years ago we purchased the 
area. That's now our responsibility. It's the only freshwater 
fishing opportunity on the refuge. And also that dike would 
hold back water that we could use to manage the main 
impoundments at Brigantine.
    Another thing that we need to be dealing with is the office 
facility that we have at the Barnegat unit. We're in a trailer. 
Trailers are designed for temporary facilities. Hopefully, the 
National Wildlife Refuge at the Barnegat Division is going to 
be here in perpetuity. Trailers are only good for so long. They 
start to fall apart. Very high maintenance on those.
    We'd like to get around to building a modular-type office 
for our office up here at the Barnegat Division. Cape May has 
no storage facilities whatsoever right now, and if you're going 
to start doing habitat management, you need equipment. To 
further the life of the equipment it's good to have it under 
cover. Also, it prevents people from borrowing things from 
Uncle that they like. And that has happened on occasions.
    The maintenance building down there, a storage facility 
down there, we figure, would be over $200,000.
    So these are the kinds of things we're talking about.
    Mr. Saxton. Well, I look forward to working through these 
issues with you, as you know, and we'll be talking about them 
more. I just thought it was important to get some of those 
things on the record, because the record that we take back to 
Washington with us will be shared with other Members of 
Congress.
    John, Mr. Rogers, let me return to you to just explore one 
other issue. As you may have heard me say in the past, I 
believe that public support for the refuge system is essential. 
That goes without saying.
    So to the extent that we can involve members of the public 
in activities on refuges like the Forsythe, public support will 
be enhanced.
    I understand that there are something in the neighborhood 
of 98,000 birders who visit this refuge each year and 
contribute over $4 million to the local economy. And I also 
know--and incidentally, if it sounds like I know some of the 
answers to these questions before I ask them, it's only because 
I spent last Monday with Tracy Castleman down at the refuge 
looking at these, looking at some of these issues.
    I know that, with regard to this question, you are planning 
to enhance nature trails, re-open some nature trails, and 
perhaps there are a number of other things that you are doing 
or planning to do, John, to enhance public participation at 
this refuge and other refuges around the country.
    The question is two-part. On a national level, what are we 
doing with regard to this subject, and, specifically, at the 
Forsythe, what are we doing?
    Mr. Rogers. On a national level, you correctly state that 
both public participation, public enjoyment, and public 
involvement in the refuge are critical, both for the support of 
the refuge and also for the education of the people who use the 
refuges.
    Public participation is a critical involvement component of 
the comprehensive planning process, that is, where we 
principally and officially derive the input of the public into 
where we should be going with management and development of a 
particular refuge.
    Second, public use of the refuge system is paramount where 
it is--while dependent on the wildlife resources existing on 
that refuge and where it is compatible with the purposes for 
which the refuge was established.
    Too frequently our public use ability is impaired because 
of the lack of funding for developing the kinds of facilities 
you spoke briefly about, that is, trail systems, boardwalks, 
road access--safe road access, and the like. So the public is a 
critical component of the refuge system, first through the 
comprehensive planning process and our ongoing interaction with 
the public as neighbors, and second, because the refuges are 
there. Once they are fulfilling their wildlife missions, 
they're there for the public to use and enjoy where it is 
dependent and compatible with the wildlife mission.
    For the specifics on Forsythe, I defer, once again, to 
Steve.
    Mr. Atzert. Talking about public use. Let me talk about 
public use first.
    We are currently working on opening a trail at the Reedy 
Creek unit of the Barnegat Division up in Brick Township. We'd 
like to get that done. I'm looking at Tracy--June 10?
    Mr. Castleman. June 7.
    Mr. Atzert. We're looking to dedicate that trail on June 
7th of this year. Something else we're working on right now is 
a partnership with people around Barnegat. Allison Banks, our 
Barnegat Division Manager, has been working with two citizens 
in Barnegat as well as with the township. The township is 
interested in putting in a fitness trail, and we will be 
putting up a observation platform at the Barnegat impoundments 
so that people can stop on their walk around the fitness trail 
and observe nature up close.
    We are currently working with a group in Cape May County 
that's interested in putting in a trail through the Cedar Swamp 
Division. The trail location is also a priority for the State 
trail system.
    They're trying to put together a trail from Cape May all 
the way up to Manumuskin in Cumberland County. And this two-
mile stretch would be part of that. So we're working with 
townships of Dennis, Borough of Woodbine and Middle Township on 
that particular trail, and hopefully we'll be getting the 
county involved as well.
    Mr. Saxton. Thank you. Do you subscribe to the National 
Guidelines of 60 percent of the refuge being used for wildlife 
only and 40 percent being used for other historic human uses?
    Mr. Atzert. Well, that's more than a guideline. That's one 
of our--one of the laws, and I believe it requires that we not 
open more than 40 percent of an area to migratory game bird 
hunting unless the Secretary of the Interior determines that 
opening up a greater area would be beneficial to the refuge and 
to the species involved.
    Mr. Saxton. And did you have a new hunting program last 
year involving non-migratory Canada geese?
    Mr. Atzert. Yes, we did. This past January and February, 
during the States resident Canada goose season, we opened up 
the impoundment at Brigantine for the first time ever to 
controlled hunt, and we did that five Wednesday mornings, and 
the idea was to give people an opportunity to get--to shoot 
those geese.
    We do have a problem in this State with resident geese. We 
did not do it every day. The idea was to shoot them one day and 
then let them sort of settle back in, and then come back the 
following week. We also worked with some of the local golf 
courses to sort of coordinate efforts to reduce the population 
in the area.
    Mr. Saxton. Well, thank you. I think that last question may 
have been a difficult one for you to answer for a variety of 
reasons, but Commissioner Shinn, who is also here, who will be 
the lead witness on the next panel, and I know full well of the 
impact of the non-migratory geese and the difficult issues that 
they have brought to us over the last decade or so.
    John, with your permission, let me address a question to 
Bob Streeter, if I may.
    As you know, the practice of the U.S. Fish and Wildlife 
Service, relative to acquisition of refuge property, has 
historically been to acquire additional property through 
whatever funding mechanisms we have from time to time, and upon 
acquisition those lands were immediately closed to all historic 
human uses until a management plan was adopted.
    I understand that there has recently been some change in 
that policy. Can you explain what the new policy is?
    Mr. Streeter. Yes, Mr. Chairman, I'd be happy to.
    The past policy was, basically, any new lands added to the 
refuge system would be closed until we could do a compatibility 
determination process, and then they would be open by 
regulation.
    We are now looking at another way of going about it, which 
we think is a lot more neighbor friendly. The policy that was 
implemented, first of all, through an executive order that was 
signed last year by the President basically says, as we move to 
acquire new lands, before we acquire them, we will make a 
determination of which of the existing uses can be continued 
on, at least, an interim basis after we would acquire those 
lands. So that the public involved, the public or the 
neighbors, know what our plans are immediately after acquiring 
that land, and then, as we move through the comprehensive 
planning process that John talked about that we hope to have 
completed if we get our '98 budget, we hope to have completed 
over the next eight years, there will be full public 
involvement then as we do the comprehensive planning in a 
longer term framework.
    But the bottom line is we want to let our neighbors know 
what those lands will be used for, what they can be used for of 
the existing uses right after we purchase them, rather than 
immediately closing them. And we have some examples that have 
already--we've been able to implement that plan or that policy 
through this last year already.
    Mr. Saxton. Well, I appreciate that very much. We have had 
some cases here in New Jersey, particularly the most notable of 
which was Bonnet Island, which was a very visible part of the 
Forsythe Refuge, which the refuge system acquired some years 
ago, and immediately closed it by erecting a gate with a sign 
that said, ``Keep out.'' And it was not good public relations, 
and I'm very pleased that we have now changed that policy.
    Go ahead.
    Mr. Streeter. May I make one other comment, Mr. Chairman?
    It does cause some strains with our existing refuge 
operations. Steve might be able to address that better, but in 
general, we have a refuge budget, we acquire new land, and we 
haven't gotten addi-

tional money to manage a particular use, but we are hoping 
that, through partnerships and through making adjustments, we 
can modify our operations to provide that use as compatible.
    Mr. Saxton. Thank you very much.
    I'm going to turn now to Dick Schaefer. Let me thank you 
all very much for your participation.
    Congressman Pallone has arrived, and we want to welcome the 
gentleman from the north shore area of coastal New Jersey, and 
so while he's getting settled, let me ask Dick Schaefer a 
couple of questions.
    Dick, historically--well, first, let me say what brought 
this forage fish issue to my attention as it relates to 
bluefish and striped bass, and I don't know that anybody has 
the answers, and that's why we've sent Ken Able to find the 
answers. But essentially, we seem to see different behavior 
from different--different behavior exhibited. I'm not sure if 
it's different, or what is apparently different behavior.
    During the decade of the '70's and early '80's the striped 
bass disappeared from our coastal areas, not completely but for 
as far as--as far as fishermen were concerned, they had 
disappeared. And then they came back, and we all know why, or 
we all think we know why that was, because of some different 
human behavior, which may have been environmental in nature, in 
part, and which may have been regulatory, in part, based on a 
partnership of the State and Federal Government formed on that 
issue.
    More recently bluefish seem to have moved offshore and come 
back to visit us occasionally, but by and large the biomass 
seems to be offshore. And at least, the third party of this, I 
guess, third issue is that forage fish, including Barnegat Bay, 
its blue crabs, seem to be in shorter supply than at any time 
that I can remember. And the bunker--also known as menhaden and 
other forage fish species--seem to be in shorter supply.
    Is that an accurate description? And if so, can you 
elaborate on anything that you may have, in terms of 
information, that might be helpful to us?
    Mr. Schaefer. Let me try, to the best of my knowledge, Mr. 
Chairman. I will admit, I certainly don't have the market 
cornered on the information on this subject.
    As you correctly point out, striped bass stocks have 
recovered over the last ten years to a level which is as high 
as that stock has ever--we've ever witnessed in human history, 
and we're pleased with that for the very reasons that you 
mention.
    Current status of scientific information on bluefish is 
that they are in a period of current decline, as you also 
observe. The stock, many believe, is being overfished, but that 
is not the sole reason, probably, for the decline. It's 
probably synergistic with environmental effects that are poorly 
understood at this time.
    As I indicated in my testimony, we don't have any evidence. 
I'm unaware of any evidence that would suggest any causal 
effects between striped bass abundance and the current dearth, 
if you will, of bluefish.
    Blue crabs have relatively short life cycles, and their 
levels of abundance are influenced strongly by environmental 
effects. For example, I happen to have a house on the 
Chesapeake Bay, and last year blue crabs were in very short 
supply, as you indicate, and the early indications this year 
are that the blue crab population is probably pretty healthy. 
So these annual fluctuations in blue crab abundance are not 
particularly unusual, but the scientists in the Chesapeake, at 
least, tell us that the stock is maintaining itself at an 
historically average level.
    As far as menhaden are concerned, I frankly don't know much 
about the current status of that fishery. Perhaps Dr. Cross can 
help me out, but that fishery has gone on for years. It's 
pretty dependent upon recruitment of young fish in the southern 
part of the range, and by that I mean the Chesapeake Bay, North 
Carolina fisheries, and as the fish age, the fisheries to the 
north, New Jersey and north, are more dependent upon older age 
classes. It's an in-shore fishery, occurs largely within State 
waters, always has, fisheries largely pursued with purse 
seines. It's almost--it's a very clean fishery in terms of what 
is caught.
    I used to go on menhaden boats early in my career and the 
percentage of other species taken as bycatch was one percent or 
less, very, very minimal. But that doesn't answer your question 
directly.
    The interactions between all these species, you mentioned, 
as I say, is poorly understood, and I think is going to take a 
lot of scientific investigation to try to validate these 
observations, if you would.
    Mr. Saxton. With regard to menhaden, what is your tendency 
to say, with regard to the fishery currently? Is it in bad 
shape, is it kind of in a normal cycle, or----
    Mr. Schaefer. I'm going to ask Dr. Cross to help me on that 
one. I think he would probably have more information on the 
current status of the stock than I do.
    Dr. Cross. Actually, I'll probably defer to the 
representatives from the Atlantic States Marine Fisheries 
Commission, since it is responsible for looking at that 
fishery, but the landings have been fairly consistent for over 
the last decade.
    Mr. Saxton. Are there any other species of forage fish or 
species that we would generally refer to as forage fish which 
are in short supply?
    Dr. Cross. Some of the species that run up the rivers, like 
shad, river herring, we've seen declines in their populations 
but, on the other hand, some of the off-shore species, like 
mackerel, herring from farther north, are at very healthy 
population levels. So I guess the evidence is mixed.
    Mr. Saxton. What would you say to near-shore fishermen who 
have noticed that there seem to be--this is, of course, 
anecdotal reports--that seem to be of very short supply of 
menhaden?
    Dr. Cross. I'm afraid I don't have an answer for that 
question.
    Mr. Saxton. Unless Congressman Pallone has any questions 
for this panel, I would like to just say, at this point, that 
we've got two more panels to address these two issues 
separately, and so I want to thank all of you for being here 
with us today, particularly those of you who came from out of 
town. We've appreciated your participation, and we'll look 
forward to working with you on these and other issues as we 
move forward.
    OK, if I may call Panel II. We are going to proceed with 
Panel II. Let me just introduce the members of this panel. Mr. 
Robert Shinn, who is the Commissioner of the Department of 
Environmental Protection, is with us, and if you folks would 
come forward and take your places at the table. Mr. Frank 
Bittner, President of the New Jersey Federation of Sportsmen's 
Clubs; Ms. Joan Koons, President of the Board of Trustees of a 
group that we know as ALO, or Alliance for a Living Ocean; Mr. 
Willie DeCamp, who is President of the Save Barnegat Bay, Ocean 
County, Izaak Walton League. And we welcome all of you here. I 
might point out at this point that Commissioner Shinn is here. 
He just handed me a note, however, that he has a telephone 
conference call which he must make, and he will rejoin us in 
something in the neighborhood of 15 or 20 minutes.
    So while we are waiting for him to rejoin us, we will begin 
with Joan Koons, and of course, we're now switching our subject 
back to the Forsythe and issues that are related to it. We are 
anxious to hear from all of the members of this panel. We'll 
proceed with Ms. Koons and then Willie DeCamp, and, again, the 
little lights indicate a time limit; however, don't worry if 
you tend to be a little bit longer than the allocated five 
minutes.
    Joan, you may begin.

STATEMENT OF JOAN KOONS, PRESIDENT, BOARD OF TRUSTEES, ALLIANCE 
                       FOR A LIVING OCEAN

    Ms. Koons. I thank you, Congressman Saxton and Congressman 
Pallone and the Subcommittee on Fisheries Conservation, 
Wildlife, and Oceans, for this chance to testify.
    My testimony will spotlight one acquisition that our grass 
roots group holds so dear. For the last few years the Alliance 
for a Living Ocean, ALO, has had the honor of being a 
facilitator for the Edwin B. Forsythe National Wildlife Refuge, 
Bonnet Island Unit. Various schools and organizations, such as 
Ocean Nature and Stafford Township Intermediate School, have 
used this refuge as an educational site. Our volunteer guide 
points out indigenous flora, fauna, and birds which stop over 
as they use the major flyway on the east coast. Water quality 
and how people affect it by non-point source pollution is 
stressed repeatedly.
    As we look across the bay to the development on Long Beach 
Island we feel the need to preserve areas such as the Bonnet 
Island refuge. The importance of these protected areas cannot 
be overstated. However, individuals should be able to visit the 
refuge to further understand their importance.
    ALO has made the Bonnet Island area its spring cleanup 
target. Each April volunteers clean the grass area littered 
with highway debris concentrating on the pond and bay beach 
area. At this point in time it is almost impossible to access 
its trails. Our volunteers have brought out thousands of pounds 
of debris, including old cars. Now we are ready to use it to 
teach the worth of non-point source pollution control and the 
necessity of preserving wetlands.
    In 1996 a mitigation project was begun on Bonnet Island in 
accordance with a New Jersey Department of Environmental 
Protection ruling. The project included a pond and the planting 
of various indigenous plants. The plantings were done under the 
supervision of Dr. Eugene Vivian of ACES Environmental. He 
instructed an ALO volunteer on how to monitor the health of the 
project and ob-

serve the wildlife. The trails were not maintained in a manner 
that the volunteer could access and observe this project.
    Bonnet Island is a sheltering place for flocks of herons, 
glossy ibis, black ducks, brants, tree sparrows, juncos, red-
winged blackbirds, harriers, sharp-shinned hawks, yellow-rumped 
warblers, white egrets, et cetera. The pond area shows evidence 
of raccoon, red fox, and deer footprints.
    In August, 1997, ALO will be completing its tenth year. We 
look forward to making the education of residents and visitors 
alike to our barrier island area a priority. We hope to factor 
in the use of Bonnet Island as an educational laboratory. 
However, we are met with frustration when the land is there and 
our facilitators cannot access it properly because the 
designated pathways are not maintained. We want to be partners. 
We want to help the U.S. Fish and Wildlife Service; however, we 
do not have extensive funding that would make this possible. We 
are asking the Federal Government to re-evaluate the 
appropriation of adequate funds for proper maintenance of 
refuge properties. We have the greatest respect for the 
management staff in our area and desire to work fully with 
them.
    ALO is proud to be a facilitator of this property. We have 
come to love and understand its value to the ecosystem. The 
Alliance for a Living Ocean is committed to this important 
partnership with the U.S. Fish and Wildlife Service.
    Mr. Saxton. Joan, thank you very much. If I may just 
postpone my questions for you for just a minute. Commissioner 
Shinn is with us, and he's got an extremely busy schedule, and 
he's been here for over an hour already, and I know that he has 
got other things that he needs to do, so, Willie, with your 
permission, if we may go to Commissioner Shinn at this point to 
hear his testimony, and--what is your timeframe period this 
morning?
    Mr. Shinn. I'm fine for the next----
    Mr. Saxton. OK. OK. Proceed. Thank you.

STATEMENT OF ROBERT SHINN, COMMISSIONER, NEW JERSEY DEPARTMENT 
 OF ENVIRONMENTAL PROTECTION, ACCOMPANIED BY THOMAS W. McCLOY, 
   ADMINISTRATOR, NEW JERSEY MARINE FISHERIES ADMINISTRATION

    Mr. Shinn. Great. And good morning, and thank you, and good 
morning, Frank. It's good to see you with us. It's funny some 
of the shore issues divide themselves, and we see a lot more 
with Frank and the dredging issues that are focused to the 
north.
    I appreciate the opportunity to be here this morning. Of 
course, I'm Bob Shinn, Commissioner of the New Jersey 
Department of Environmental Protection. I could probably 
shorten my testimony a great deal by simply saying there's not 
enough money and there's not enough fish, but as you know, the 
bridge to solving that issue is a lot of public understanding 
of the problem and a lot of work in the estuary to enhance the 
habitat to create more fish to start with.
    New Jersey is home to five national wildlife refuges 
totaling more than 60,000 acres. These refuges combined with 
New Jersey's own wildlife management areas, parks and forests, 
create a key link in the long-term protection of New Jersey's 
wildlife resources. I'm happy to say the high degree of 
cooperation between the State and Federal wildlife management 
personnel has further enhanced the value of this linkage.
    Refuges provide important opportunities for hunting, 
fishing, birding, and other wildlife associated forms of 
recreation.
    Our nation's wildlife system is a success story we can all 
be proud of. The system holds much potential for improving fish 
and wildlife habitat and for providing recreational 
opportunities for people.
    These important opportunities cannot be realized without 
adequate operation and maintenance funding. I strongly support 
an increase in the funding requested and appropriated for these 
high priority activities.
    Land acquisition for the purpose of habitat protection and 
public use and enjoyment is a high priority. Funding for 
operations and maintenance should not come at the expense of 
land acquisition efforts. Separate funding mechanisms should be 
available to support land acquisition and operation and 
maintenance.
    The department's biologists within the Division of Fish, 
Game and Wildlife participate actively in the service's 
ecosystem teams landscape management and the service is an 
important component of our developing programs. Both of the 
above approaches to wildlife conservations are designed to 
establish partnerships to manage species across agency lines.
    Without sufficient O & M funding, the service is hampered 
in developing partnerships with other agencies, particularly in 
regard to developing compatible GIS capabilities.
    The service is also hindered in providing much needed 
facilities for wildlife-associated recreation. Trails, 
observation blinds, boat launch ramps, and other similar 
facilities which are in great demand in New Jersey are rarely 
developed, due to the shortfalls in operation and maintenance 
funding.
    General non-facility wildlife-associated uses, such as 
hunting, fishing, and birding, are also restricted due to lack 
of operation and maintenance funding. The excessive 
administrative burdens placed upon the refuge managers make it 
difficult, if not impossible, to open areas to traditional 
compatible uses for many years, and sometimes decades.
    Areas that have compatibly supported wildlife-associated 
recreation for literally centuries are closed to these uses 
once they become part of a national wildlife refuge. This is a 
result of the manager's responsibility to re-write history time 
and time again for every use proposed on a refuge.
    There is general agreement among wildlife scientists that 
most wildlife-associated recreation is compatible with refuge 
purposes in most situations. Although I applaud the President's 
efforts to encourage compatible wildlife-associated recreation, 
the Federal legislation under which the refuges are 
administered needs to be improved.
    Now, let me take a couple of minutes to talk about other 
subjects that you are addressing today.
    Predator-prey relationships in marine species are generally 
poorly understood.
    Bluefish and striped bass are primarily fish eaters in 
their adult stages. When they are in the same area, they are 
probably competi-

tors for forage species. Bluefish and striped bass extensively 
utilize estuaries as nursery areas. Striped bass appear to rely 
more heavily on invertebrates, such as small shrimp and 
amphipods in their early stages.
    By the middle of the summer both species rely on small fish 
for a substantial portion of their diet.
    Both bluefish and striped bass are opportunistic feeders, 
but if given the opportunity, striped bass prefer soft-rayed 
species such as Atlantic menhaden, river herring, bay anchovies 
and silversides.
    Bluefish diets may be more diverse, including butterfish, 
menhaden, round herring, sand lance, Atlantic mackerel, bay 
anchovy, young weakfish, spot and Atlantic croaker.
    Although some predation of small striped bass by large 
bluefish and vice versa may occur, those species do not seem to 
make up a significant portion of their diets. Several studies 
indicated that predation of striped bass by other species did 
not contribute to the decline of striped bass in the late '70's 
and early '80's.
    There have been periods of time such as the early to middle 
'70's and possibly earlier when both striped bass and bluefish 
were at relatively high levels of abundance.
    Prey species, such as menhaden, bay anchovy, and 
silversides are very abundant. With a wide variety and large 
biomass of prey species available throughout the range of 
striped bass and coastal bluefish, the likelihood of prey items 
constituting a limited factor for bluefish or striped bass 
population is not high.
    Obviously, I don't have all the answers solving either the 
money or the fish population issues; however, some very 
positive things are happening throughout the area.
    Number one, Barnegat Bay Estuary Plan, and you've been a 
significant part of that, and together with the governor, I 
think are the primary reason that that came to fruition. And 
the interest in that program and the information and general 
data that we already have recorded on our geographic 
information system has really given us a jump start in that 
estuary program.
    Increase in pump-outs are already starting to lead to no 
discharge areas, which is going to give us a major improvement 
in our estuary.
    New Jersey's new Draft Water Shed Plan, which I just 
released last week, starts to look at our discharges in a 
different vein and look at something we've talked about for 20 
years, non-point pollution on a very regimented basis.
    An aggressive Green Acres acquisition program. In the last 
three years we've purchased individually and jointly with non-
profits, and certainly partnering with New Jersey Fish and 
Wildlife, the State's acquired over 77,000 acres over three 
years, and if you look back to 1961, our average acquisition 
over three years was 30,000 acres. So we've significantly 
enhanced our acquisition program.
    A new plan for the coast to be launched on the 29th of this 
month, the Coastal Master Plan is more of a consensus document 
than a top down plan, but we've got all the issues, from sea 
level rise to all the issues with barge unloading and litering 
and all the issues that impact our coast and have in the recent 
past.
    Our GIS program, and that's something I mentioned in my 
formal remarks, but we would like to see more Federal 
involvement on our GIS program. It's geographic information 
computerized mapping with overlay capabilities. But we're 
getting all of our wildlife habitats, all of our wetlands 
areas, all of our parks, facilities. Our new acquisition 
program, I talked to you briefly about the other day, that maps 
all the acquisition, Federal and State agencies, non-profit, 
local, county mapping which really puts together, for the first 
time in a single map, all the linkages that are created by 
everybody that's interested in land acquisition and points up 
some new priorities that, I think, we've got to address in, not 
only shore protection, but in stream corridor protection and 
headwaters protection, and it gives us a little bit of a new 
vision in where we're headed with acquisition. And there's an 
ideal opportunity for enhancing our partnership with the 
Federal Government in this effort.
    I think today's--I'd particularly like to commend the 
Committee and yourself on today's hearing. I think the 
information gap on what happens in preserve areas, and what 
suffers when you don't have adequate funding to provide 
operational maintenance, and one of the most effective areas 
that I think we need to focus on going forward is the public 
education and interpretation. If we don't do that, we're not 
educating our young people on what this environmental balance 
that we're just coming into understanding on in recent years, 
what it means to our long-term survivability on the planet and 
what it means to our economy.
    The economics of environmental protection and the economy, 
as you know, are closely linked in probably no stronger place 
than they are right where we're sitting. But a strong 
environment means a strong economy, certainly, on the coast 
and, I think, throughout New Jersey.
    So I thank you for the opportunity to testify today, and 
wish you a lot of luck in your hearing efforts.
    Mr. Saxton. Thank you. Commissioner, before you leave, and 
with the permission of the other two witnesses on this panel, 
I'd just like to ask you a couple of questions, if I may.
    Before I do that, let me thank you for giving the governor 
and I so much credit on the Barnegat Bay's inclusion in the 
National Estuary Program. You're being much too kind.
    Frank and I worked, and I think we can both agree with this 
statement, Frank and I worked together for a decade trying to 
get Barnegat Bay named as part of the estuary system, and it 
wasn't until you became commissioner that we were able to get 
that done, and I know how much you contributed to that, and so 
thank you for the kudos, but you should look in a mirror when 
you say those words, because you were primarily responsible for 
getting it done, and Frank and I both appreciate it.
    Mr. Shinn. Those partnerships work great.
    Mr. Saxton. Yes, they do.
    Let me ask you two questions. One about the striped bass 
program, which has obviously, an extremely heavy involvement 
with State and Federal partnership, with the State playing 
today, in my opinion, the major role.
    Is it working--while the results are obvious, as Dick 
Schaefer pointed out, we've got more striped bass today than 
anytime in recorded history. If you'd just like to comment on 
it from a State per-

spective, and is there anything that we ought to know that we 
could do differently? Obviously, New Jersey has some special 
aspects that work pretty well with regard to the program.
    Just in a general sense.
    Mr. Shinn. When I was sitting in the audience listening to 
the testimony I was thinking back to my high school days when I 
spent most of that time in the summers mating on fishing boats 
and it was really common to go out and pick up two or 250 
snapper blues, and most of those would be a pound and a quarter 
or less. And if you wanted to get a decent size bluefish, you 
had to go to the Barnegat Ridge, north or south ridge, and you 
might pick up a four or five-pound blue, but in recent years 
we've been picking up larger fish, not only close to the coast, 
right offshore, but in the inlets and in the bays, which would 
be totally unheard of in the '50's.
    The dynamics of the small fish versus the large fish, I 
have to tell you, I totally don't understand. But the one thing 
I think I've got a fairly clear picture of, that the quality of 
the bay water and the quality of the estuary in general has a 
very large dynamic on breeding characteristics of fish.
    And I think we're at a fortunate time to bring focus on the 
Barnegat Bay estuary. I think if we can improve the water 
quality, and I think there are some significant management 
activities we can undertake to improve the water quality, the 
pump-outs, the handling of storm drainage.
    We know a lot about the Barnegat Bay. We've got a lot of 
data on our GIS system. An aggressive acquisition program, I 
think, is part of that strategy, but certainly we need 
maintenance money, too, to carry out these strategies once the 
acquisition is done.
    I think there are man-made things we can do to enhance fish 
population, fish population enhancement, and I think we're on 
our way to doing it, and there's probably some better science 
that's on the horizon than I've talked about, but I think 
enhanced environmental quality in the estuary is a key 
ingredient to enhancing fish population.
    Mr. Saxton. Thank you. Let me change the subject.
    There is a species in New Jersey known as the glass eel. 
I'm told that because they can bring as much as $300 a pound 
today, there is--in Japan--I am told that today there is 
tremendous pressure in this fishery. Is New Jersey making 
certain that these eels will not be overfished, and is there 
something that the Federal Government ought to know and do in 
order to assist in your efforts?
    Mr. Shinn. Let me get some able assistance on that subject. 
My knowledge of that specific area is not that great so----
    Mr. Saxton. Fair enough.
    Mr. Shinn. I brought help with me.
    Mr. Saxton. This is----
    Mr. McCloy. Tom McCloy, with the New Jersey Marine 
Fisheries Administration.
    The glass eel fishery has existed for a number of years. In 
the last few years it has taken on more importance as more 
people realize the economic benefits to be made from that, and 
as a consequence more people have gotten into it.
    Last year we had a considerable number of problems which we 
tried to resolve through regulatory actions, restricting the 
gear, re-

stricting the season, etcetera. I'm not sure it helped a lot 
considering what occurred this year. We had more people doing 
it, theoretically at least, with less efficient gear. The 
problems associated with the fishery were extremely 
exasperated, even over last year. Trespass problems, buoying 
problems on streams, even instances, I'm sure you read about in 
the paper, of individuals carrying firearms, et cetera.
    Because of this we're taking a very critical look at 
regulations for next year. And incidentally, the season just 
closed yesterday. So we're going to be taking a hard look at 
that to see what steps we need to basically try and address 
those problems that occurred this year. Maybe nothing less than 
a total ban would be required in order to accomplish that.
    You should be aware that the Atlantic States Marine 
Fisheries Commission is also developing a plan for the American 
eel, which--this is the younger life stage of the glass eel, 
and although that plan is not coming on line probably for 
another year or two, we're looking to them for some kind of 
guidance, also.
    Mr. Saxton. Thank you very much.
    Mr. Shinn, let me just ask one last question, and then I'm 
going to turn to Congressman Pallone for his questions.
    You mentioned in your testimony the extensive holdings that 
both the State of New Jersey and private organizations have, in 
terms of environmentally sensitive land in the coastal areas.
    Obviously, we're here to discuss, as well, or primarily, I 
guess I should say, the Federal role in this regard. Is there 
an opportunity for partnerships among private, State and 
Federal landholders, and would you comment on that briefly?
    Mr. Shinn. Absolutely.
    I think we're fortunate that we have a great relationship 
with the Federal agencies, but I think we can take that to the 
next step. I think--I keep talking about GIS all the time, but 
I think it's our information data base and the department. 
We've got 18 or 21 counties up on the system. The Barnegat 
Estuary Plan is going to be on the GIS system, and it's going 
to be on the internet probably by the end of the summer. But we 
have about 50 plus software packages out to non-profits, so 
environmental groups are working on this computerized mapping 
data base themselves.
    We see it from a watershed perspective, GIS base, so that 
all the data, as mapped on GIS, if you've got an unidentified 
pipe or you've got a discharge in a certain area in a swamp 
that's hard to identify, you can use global positioning to nail 
that site down. So it's just an exceptional mapping base to 
work with in a watershed context.
    So we found, also, that working with non-profits, like 
Trusts for Public Land, who have been very active in this 
particular region, has given us an extra lever to work on land 
acquisition, and we can actually buy more land per dollar by 
using non-profits in the exercise.
    So I think even enhancing a very good partnership that we 
have now is on the horizon. And of course, it gets tough when 
resources are short, because everybody's trying to put fires 
out, and we've certainly been through that exercise, as well. 
But I think really getting the state of the resource to the 
optimum and creating part-

nerships to the optimum extent possible, and not only 
governmental but also private involvement.
    I heard several people were interested in putting trails in 
different areas of the refuge, and I think that's great, and I 
think those are the kind of things that are going to let us do 
more from a public perspective in areas of tight budget times.
    So I think working closer together, leveraging our 
resources, both governmentally and privately, and trying to, I 
guess, blend over those tough areas where you go from 
governmental to private for the public benefit, some--there are 
some difficult barriers there, but I think working through 
them, and I think we can get there. And I think we need to.
    Mr. Saxton. Thank you very much.
    Before returning to Willie DeCamp and Joan Koons, Willie 
for his testimony and then questions for both, Mr. Pallone, 
would you like to address some questions to Mr. Shinn?
    Mr. Pallone. Thank you, Mr. Chairman.
    Let me just follow up on what Jim just said. With regard to 
possible State, local cooperation with the Federal Government, 
the one thing that cries out through all this with the National 
Wildlife Refuge is the lack of funding. And it's very difficult 
for us to make the case, not only for additional acquisition, 
but even for operations and maintenance. We can make the case, 
but the money isn't there, and we don't have the ability, 
because of the atmosphere in Washington right now, to convince 
a majority of our colleagues, to do a lot more.
    I'm just wondering what you face and whether or not, in 
terms of operations and maintenance, because I know that we've 
already heard from Ms. Koons, and we're going to hear from 
others, I'm sure, about the problem of keeping up.
    Is there a source of funding or other ideas in terms of 
volunteer groups? These volunteer groups are doing as much as 
they can, but it's just so frustrating, because we know the 
statistics are out there as to what should be done and how much 
it's going to cost, and we don't appropriate the money to do 
it.
    I'm just wondering if you had some ideas, Mr. Commissioner.
    Mr. Shinn. Well, there are some----
    Mr. Pallone. I don't really have any, I'm not trying to put 
you on the spot, because I know it's tough at every level, 
but----
    Mr. Shinn. Yeah. No, it's certainly--some good things have 
happened over the last twelve months or so.
    Number one, there was two questions on the ballot, one 
was--gave the department four percent of the corporate business 
tax, which is roughly $46 million plus a year that the 
department has for specifically identified items.
    And the other was the bond issue which, as you know, went 
for dredging and other economic development projects. They 
were, to me, aside from having the money, which is very, very 
welcome, they were good indicators that there's strong public 
support for environmental--the environment, open-space type 
activities, plus getting our ports viable from a dredging 
perspective.
    In addition to that, we have a committee that's being 
chaired by Assemblywoman Ogden, who you know very well----
    Mr. Pallone. Sure.
    Mr. Shinn. [continuing]--who is looking at the stable 
source of funding for our parks and maintenance included, and 
as a primary pre-requisite, because funding goes up and down 
with budget cycles, and you've been through that drill before--
--
    Mr. Pallone. Exactly.
    Mr. Shinn. [continuing]--and know it well. So I guess we've 
really moved our site remediation program--it's in transition 
right now, but I think there were $70 million in that bond 
issue for site remediation. That'll probably be our last site 
remediation bond issue, and now we'll go to stable source of 
funding under the corporate business tax. Fifty percent of 
those dollars was dedicated to site remediation.
    So we've gotten the department, in the last three years, 
off of fees and fines, and on budget, and it was a difficult 
time to do that transition, as you know, but I think the good 
news is we can set environmental priorities and fund them and 
not be a fee-driven agency. Plus we've got site remediation 
moving to a stable source of funding. And my goal, ultimately, 
is to have our park system on a stable source of funding, and I 
think we'll be much more able to address the issues that we're 
talking about today, because operation and maintenance and 
adequately staffing parks--we're adding parks in New Jersey. 
We've added a couple of parks over the last couple of years.
    So it's really a challenge to keep up with the demand. The 
public demand for our park system, while other States are sort 
of waning, is increasing annually. So the more increase you 
have, the more staff requirements that are--particularly 
interpretation. I think we're missing the boat, by and large, 
in an area that I'd like to spend more effort on, is 
interpretation of our park system and bring more school 
children through the system, because I think that's where our 
future lies, and I think that's where we need to focus our 
efforts.
    Mr. Pallone. I appreciate that. I think that, particularly, 
the stable source of funding is so crucial. I mean, because 
that's what we face, you know, the, as you say, ups and downs 
in terms of Federal funding levels in a given year. And I just 
wish that we could address the problems in the same way.
    Mr. Shinn. I think exactly what's going on here today is 
part of the solution. All of us have been around this business 
long enough to know what drives the system is the public, and 
if you--I think we've seen strong indications of the public's 
concern for environmental quality, and I think by having these 
kinds of hearings, talking about the nitty-gritty problems of 
managing a reserve that normally don't come on the public 
screen.
    I think we're getting a better understanding as well put 
our environmental problems out there. And one thing the GIS 
system has done for us, we've put out lists of--our known 
contaminated site list in the State of New Jersey contains some 
8,600 sites. For the first time, we've put out a package. The 
GIS system puts all these sites out there, underground storage 
tanks, superfund sites, spill fund sites, brownfields, the 
whole litany of impacted sites. So you can go on a GIS system 
or call an 800 number and say, ``Gee, my home is here. Is there 
a site around my home, either one that I have or one that I'm 
buying,'' and just find that information out in a snap.
    So I think that kind of data and sharing of data is what's 
going to get all of our problems out to the public and get a 
better recognition of what we're trying to deal with as 
governmental officials from a public perspective.
    Mr. Pallone. OK, well, thank you very much.
    Thank you, Mr. Chairman.
    Mr. Saxton. OK, Willie and Joan, thank you for bearing with 
us.
    Bob, I don't know whether you have any more time to spend 
with us. If you do, you're welcome to stay; if you're tight on 
time----
    Mr. Shinn. I'd love to stay, but this schedule that drives 
me won't let me.
    So thank you very much for----
    Mr. Saxton. Thank you for being with us. We've----
    Mr. Shinn.--thank you for letting me jump in and do this.
    Mr. Saxton. We've enjoyed your participation and----
    Mr. Shinn. OK, but I will leave a couple of experts on the 
issue if you need any more information.
    Mr. Saxton. Thank you. We appreciate it.
    Willie, thank you for bearing with us, and you may proceed.
    Mr. DeCamp. Thank you very much.
    Mr. Saxton. This is Willie DeCamp from the Save Barnegat 
Bay and the Izaak Walton League.

STATEMENT OF WILLIAM DECAMP, JR., PRESIDENT, SAVE BARNEGAT BAY, 
                OCEAN COUNTY IZAAK WALTON LEAGUE

    Mr. DeCamp. Which are the same thing. Save Barnegat Bay is 
the Ocean County Chapter of the Izaak Walton League of America, 
and I thank you very much for inviting me to testify. 
Congressman Saxton and Congressman Pallone, hello.
    Mr. Pallone. Good to see you.
    Mr. DeCamp. You've both been long-time vigorous supporters 
of the Forsythe Refuge, and of one of the main projects of Save 
Barnegat Bay, which has been to expand the Forsythe Refuge, and 
it's great to be here and participate with your continuing 
support.
    Save Barnegat--if I may, I have submitted my written 
testimony, and I would just like to summarize it verbally.
    Mr. Saxton. Please.
    Mr. DeCamp. Save Barnegat Bay is a not-for-profit 
organization, and we're dedicated to land conservation in the 
Barnegat Bay Watershed as well as promoting water quality, two 
interrelated concepts, and we have worked hard to support the 
Forsythe Refuge and to promote acquisition in Barnegat Bay.
    One of the important things, I think, that the refuge does, 
is it passes along natural habitat and all of our--the nature 
values that we want to pass along to posterity in a more 
reliable form, I think, than the other vehicle, which is land 
use regulation, can do.
    One of the concerns I have as I back off and look overall 
at the big picture is that land use regulation gets whittled 
away. The distinguished individual just speaking might not 
agree with that or might feel a little bit differently than I, 
but, you know, I see developments get approved that I thought 
when a wetlands law passed or when Cafer II passed were not 
going to be approved. And if this goes on over the course of 
decades, then I begin to see that land acquisition from willing 
sellers really is the most reliable method of guaranteeing to 
future generations that the habitat will be conserved.
    Joan and I, I guess, offer the local perspective. We're not 
trying to advance our, you know, parochial interests, but we, 
perhaps we can supply examples of local instances of the 
problems in regard to management and maintenance of the 
Forsythe Refuge or of the national system.
    One of the concerns that I have, as I tried to prepare for 
this hearing, is that I think that staffing is a big problem, 
and that may not be the focus of this hearing. You're looking 
at physical improvements and buildings and what not, which 
are--definitely need remedial work and continued support. But a 
lot of the problems, I think, that the managers have, and maybe 
they're just being good sports and not saying it, is that they 
are just plain understaffed.
    The--you take the Forsythe and the Cape May refuges, as one 
refuge, they stretch from Cape May all the way up to northern 
Ocean County to Brick Township, and they have something like a 
dozen employees or somewhere in that area. And they have only 
one person to police the refuge, and I don't know that they 
have a biologist on hand at the moment.
    Mr. Saxton. They're getting one.
    Mr. DeCamp. They're getting one.
    Mr. Saxton. Yes.
    Mr. DeCamp. Good. So just--my plea would be, through any 
mechanism possible, to see that the refuge gets properly 
staffed, gets more staffed, and I would concur that maintenance 
is a problem also. You see it in little ways, like as the 
refuge expands gates. We need gates to keep dumpers out; 
hopefully gates that people could walk around, but just there 
are many trails in the upland areas which do need to be 
conserved. And trails themselves, at Reedy Creek, a trail is 
appropriate and needed, and so, too, at Barnegat where they're 
working on one, but this takes staff and money. And kiosks and 
observation areas are also needed.
    In the area of partnerships, just to take one area, you 
really see the impact of funding, I think, because partnerships 
do work, and they just have a way of creating momentum, but you 
get to the point where the Fish and Wildlife Service can't 
bring as much to the table as they should be able to, to make 
partnerships viable. Eventually you just reach the point where 
they're overstretched. If you have volunteers, like I think 
they want to use Americor volunteers, they need oversight. If 
we have a trash cleanup at Reedy Creek or if ALO has a trash 
cleanup on Bonnet Island, someone's got to show up from the 
Fish and Wildlife Service.
    So just to make the whole thing work, even when you have 
partnerships, you don't want to fall below a certain threshold, 
or it just doesn't work well.
    In terms of public involvement, the Fish and Wildlife 
Service has been increasingly open, and they held, I think they 
call them scoping meetings in many townships around Cape May 
and Ocean County, also, to take public suggestions and to 
involve the public. But you need to be careful there, too, 
because if people come to a public hearing, and they raise some 
legitimate problem, and, you know, it's a good one, and then 
the Fish and Wildlife people are sort of stuck in the position, 
``Well, we can't put a trail there, because we don't have the 
staff, or we can't do this or that.'' Then it can promote 
public cynicism.
    And I--the point that I'll just conclude with is to really 
echo your view, Congressman Saxton, that you expressed and that 
Congressman Pallone, I know you agree also, that public support 
is very important for the wildlife refuge and--because that's 
the neighbor. And in order to have public support you can't 
just have sort of an iron curtain around the refuge, and I know 
we're moving--we never had that, but we're moving even farther 
away from that, and I believe that what is really needed is 
sort of a flexible boundary to the refuge. That's the 
expression that I use, where there are some places where you 
can just go and take a walk, and it doesn't even need to be an 
educational trail. Not every trail needs to be educational. 
Some places there are educational trails; other places you can 
fish, you can hunt, and in other places, because they're 
endangered species or maybe there's a habitat that could be 
damaged by trampling, like beachhead or something, that you 
just--people have to stay out because it's appropriate, either 
seasonally or all the time to not be there.
    But it is so very important to allow people to be on the 
refuge, to see the refuge, so they can be reminded of the many 
things that it's doing for them.
    And I would--in summary, my views are a little more 
extensive in writing, and I thank you.
    [The prepared statement of Mr. deCamp may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much. I appreciate your both 
bringing your perspectives to this.
    On the subject of staffing, I know that you both agree on 
this subject. I know Joan agrees, because she's been involved 
with ALO in carrying out work which, perhaps, could be done by, 
if there were sufficient personnel at Forsythe to do the work 
and, Willie, I know that you agree with it, because you just 
said so, and I know that some of the staff at Forsythe who are 
here today agree, because some of them work 18 or 20 hours a 
day in the daytime managing the refuge, and at nighttime 
policing, and they don't have to do that. They do it because 
they're good people, and they do it because of their 
commitment, particularly in terms of the glass eel problem that 
we talked about with Commissioner Shinn, most recently, in 
going out--in the middle of the night in--at high tide, I 
guess, or whenever it is that glass eels are vulnerable, and 
trying to do what they can to enforce the law on the refuge.
    So people are stretched a long way to try to accomplish 
what needs to be done at the Forsythe. We have authorized, 
incidentally, 34 positions for Forsythe, which are less than, I 
guess, a third are currently filled. We do hope that we will 
get an additional biologist, as I indicated to you during your 
testimony, Willie, and I hope that we also get two additional 
staffers next year. It looks like we may.
    So staffing is certainly a problem, and Frank and I have 
recognized this, as well.
    Now, let me ask you--let me ask you both to respond to this 
question, because it is central to carrying out the public part 
of the program where we try to get as much public support for 
the program as we can.
    The Fish and Wildlife Service is preparing a comprehensive 
management plan for Forsythe. And you both mentioned, I 
believe, that there are opportunities for input. Are your 
groups participating in this effort and what additional habitat 
protection and visitor access projects do your groups intend to 
propose and support for the new management plan?
    Ms. Koons. Well, ALO's interest, primarily, is Bonnet 
Island, because we do a great deal of school education, and we 
do a lot of eco tours. Primarily we're a barrier island group, 
but that causeway destination is just such a vital part of 
this, and we would really love to have a very unspoiled nature 
trail with a very simple platform.
    I guess, the greatest thing we would ask for would maybe be 
at least one good quality binocular system that you could look 
over and see the developed lands on both sides of that causeway 
and just leave it as natural as possible, so you can experience 
the two worlds, the world that you're standing in, the natural 
world, and then looking over to see the developed areas that 
many of us live in.
    And I really, the times that I have been in there since I 
testified last, one day I was there with a school, and there 
were 11 blue herons. I have never seen 11 blue herons on one 
spot, and they were sitting right around the salt marsh area 
near the new pond. And it was--you didn't have to say another 
word to the whole 60 children, nothing. Nothing else was 
necessary.
    So that is what we would like to see in that particular 
area. We cannot also say enough about the staff, the Forsythe 
Refuge. The people are wonderful to work with, and our group 
would like to continue and go into the future as a vital part 
of this partnership.
    Mr. Saxton. Thank you. Willie?
    Mr. DeCamp. I'd like to echo what Joan said about the staff 
of the refuge being great and friendly and hard-working under 
difficult circumstances. I've been doing outreach for the 
management plan of the refuge. We've been participating, and in 
a way we're not really asking for very much, and in a way we 
are.
    The--what we want to see, and I think what's happening, is 
public--the ability of people to take walks on the refuge, to 
hunt, to fish where appropriate. Walking trails are important. 
I think that when people have traditionally walked, you know, 
taken a walk in the woods in their neighborhood, and then 
suddenly it becomes part of the refuge, and if it's an area 
where you don't have critical habitat, it's a--maybe a buffer 
area, appropriate buffer area, then just the ability to have 
the refuge boundary be permeable there, have someone take a 
walk there, really makes a difference. It can make the 
difference between the neighborhood really liking having the 
refuge as a part of their neighborhood, or the people feeling 
testy.
    So that is something to be desired, and it interrelates 
with staff and with maintenance, because the Fish and Wildlife 
management, obviously, doesn't want the sense that the refuge 
is just running out of control. They want to be able to keep 
some kind of reason-

able oversight. But I don't think it's that big a deal if a few 
people bring trash in, if more people than that are bringing 
trash out.
    You know, you have to sort of look at your garbage budget, 
if you will. And so, there are a lot of places where I think 
that you want the refuge to be pretty sort of open. Maybe not 
with a marked trail, but marked trails are good, too, and we 
favor observation decks. And the work on the impoundment is 
necessary. We also think in the area of that western 
impoundment is--are places where there could be trails, if 
funds were available. And you know, one thing we are definitely 
not trying to do is to turn the refuge concept into a park 
concept. We appreciate that the resource is the important 
thing, and that you have to say no in substantial areas to 
public involvement, but you don't have to say no everywhere.
    Mr. Saxton. Thank you.
    Mr. Pallone, do you have questions at this time?
    Mr. Pallone. I just wanted to ask--well, first, let me 
commend the two of you, again. I worked with Willie for a long 
time when I represented the area where Reedy Creek is, and he 
was so much involved in organizing to add it to the refuge, and 
I want to say to Joan, I think I've met you at the office there 
in Beach Haven on occasion.
    Ms. Koons. Even bought a shirt.
    Mr. Pallone. Exactly, with my kids coming to story time. So 
I know how much all of you are involved.
    My only question is, and it may be not possible, because of 
the nature of the organizations, but in terms of this 
partnership, you basically adopted the Forsythe Refuge in 
various ways. But in terms of actually enforcing, and making 
sure people don't go and dump garbage, the trails are 
maintained. Is it a regular program that you maintain? I mean, 
do you have people that just volunteer on a regular basis to 
work with the--with the Wildlife Service, or is it being 
involved like having a beach cleanup or a cleanup once in 
awhile?
    In other words, do you already actually do enforcement or 
cleanup in a systematized way with them, pursuant to a 
schedule? Is that something that's possible?
    Mr. DeCamp. Well, you know, I don't want to sort of pretend 
to be, you know, more involved than I am, and our group has 
more supporters farther north on the bay. So up at Reedy Creek 
we've done more. And that's, you know, how it tends to work. 
Wherever most of your supporters are, that's sort of the 
neighborhood concept.
    Mr. Pallone. Right. Right.
    Mr. DeCamp. We have cleanups once or twice a year.
    Mr. Pallone. Right.
    Mr. DeCamp. And we get people together, and what I can say 
mainly is we're bringing it out faster than it's coming in.
    Mr. Pallone. But what I'm saying, Willie, is if there were 
more people working, let's say as Congressman Saxton said, that 
the staff was significantly increased. Would it be possible to 
systematize the volunteer organizations with them, you know, in 
terms of cleanup or enforcement, or we're just talking about 
once a year or twice a year or something like that?
    Mr. DeCamp. It's possible to systematize to a degree. I 
mean, you can't squeeze too hard----
    Mr. Pallone. Right.
    Mr. DeCamp. [continuing]--any volunteer format. But one of 
the things that'll happen is just people in the neighborhood 
who care about the area will ring me or will ring Allison Banks 
or whomever. So it works that way, just with people driving by 
and seeing something.
    Ms. Koons. People tell you, when people are out there 
walking dogs, they tell you when somebody was selling balloons 
that--which was a double header for my group at the gate one 
time, and yes, I think the public will adopt it the same as we 
have. And I don't think that that would be an impossibility in 
the future. It's having the access to get in there without 
coming out with hundreds of ticks on you each time that's so 
vital.
    And I don't want to take your time, but one thing I haven't 
heard discussed at all today, and it's certainly a concern to 
our group, and that's the liability problem, that in the 
future, if there was more partnering, where does the liability 
start and stop? At this point, I understand when we take 
educational access, then we take on the liability. And if 
you're going to have open house to the public, I think that's 
something that should be very carefully examined.
    Mr. Pallone. OK, well, thanks a lot. I appreciate it.
    Mr. Saxton. Thank you. I have no other questions. I just 
have one observation, and that relates to, you were just 
discussing the volunteer effort that would be possible.
    I would just say that volunteers are wonderful, and when I 
was down at the refuge last Monday, the thought occurred to me 
that I could put a little blurb, and I know Frank could, too, 
in his newsletter, you know, ``Sign up to volunteer at the --'' 
however, volunteers have to be managed. And they have to be 
able to, you know, know what to do and when to do it and where 
to show up and where not to walk and all these kinds of things, 
and so I don't know whether it's possible or not, but maybe we 
can leverage a lot more labor out of the next one or two full-
time employees, in terms of some kind of volunteer management.
    I don't know whether that makes sense or not, but it's 
something that you and I, Frank, can discuss with Steve and 
Tracy at some point in the future.
    Thank you very much, both of you, for being with us this 
morning and for your forbearance for Commissioner Shinn.
    I would like to ask unanimous consent at this point that 
the statement of Frank Bittner, the President of the New Jersey 
Federation Sportsmen's Clubs, be included in the record.
    [The prepared statement of Mr. Bittner may be found at end 
of hearing.]
    Mr. Saxton. And at this point we will close this part of 
the hearing and move on to our next panel of witnesses to 
further discuss the bluefish, striped bass, forage fish issue.
    With us for this panel are Mr. Jack Dunnigan, who is the 
Director of the Atlantic States Marine Fisheries Commission; 
Dr. Ken Able, Director of the Rutgers University Marine Field 
Station; Mr. Charles Bergmann of Lund's Fishery, Inc. of Cape 
May; Mr. Tom Fote, Legislative Chairman of the New Jersey Coast 
Anglers Asso-

ciation; and Mr. Jim Donofrio, Executive Director of the 
Recreational Fishing Alliance.
    As you're all taking your seats, I'd like to welcome you 
here. Obviously, we all have a great deal in common in wanting 
to have adequate, healthy fisheries, and so our intent is to 
try to move toward that goal.
    Let me just open this panel by saying this. As Chairman of 
the Subcommittee in the 104th Congress, which was two years 
ago, our committee was known as the Fisheries, Wildlife, and 
Ocean Subcommittee. This year we added a word to the title. It 
is now called the Fisheries Conservation, Wildlife and Ocean 
Subcommittee, and we did that because we want to have an 
opportunity for fish to be plentiful, for commercial fishermen 
to have access to them, and for recreational fishermen to have 
access to them. And to the extent that people like Ken Able can 
help us understand the science behind it, and the rest of you 
can help us understand the desires and helpfulness of the user 
groups, we will be able to move in that direction.
    So let me ask Jack Dunnigan if he will begin. Jack is with 
the Atlantic States Marine Fisheries Commission. Jack, the 
floor is yours.

STATEMENT OF JOHN H. DUNNIGAN, DIRECTOR, ATLANTIC STATES MARINE 
                      FISHERIES COMMISSION

    Mr. Dunnigan. Thank you very much, Mr. Chairman. It is a 
pleasure to be able to be here today, and once again, let me 
thank the committee for the opportunity to spend a day outside 
of Washington, D.C. and near the coast of one of the finest 
coasts that we have along the Atlantic Ocean in New Jersey.
    And at this time I think I would ask that my formal 
testimony be included for the record, and I'll just make a few 
comments that I think are pertinent.
    Mr. Saxton. It will be, without objection.
    Mr. Dunnigan. Thank you, Mr. Chairman.
    I recognize that this is the panel on forage fish, but I 
can't let the moment escape without saying something about the 
earlier discussion about refuges, because in reality these 
issues really are related to each other.
    The United States Fish and Wildlife Service provides 
important support to the Atlantic Coastal States as they go 
through their business of conserving and managing Atlantic 
coastal fisheries. And a lot of the discussion so far this 
morning has been about partnerships. And the service is a 
terrific partner working with the States. It's often a 
controversial agency, but frankly, the commission believes that 
it's a great agency, and it's one that's worthy of support.
    And it's also very important to note, and I've talked to 
Director Rogers about this, about the--not just the support 
they give us in our management planning, working on committees 
and providing scientific advice, but also the fact that they 
have these refuges, these are a tremendous part of the coastal 
habitat all along the Atlantic coast that supports fisheries.
    And the proper support and management of this habitat is 
critical to the long-term productivity of all of these 
resources. So whatever you folks can do to help support their 
programs is going to be beneficial, not just for all of the 
wonderful things that have been talked about by the earlier 
panels, but also in helping to support the productivity and the 
conservation and management of our valuable Atlantic coastal 
fisheries.
    Mr. Chairman, the hearing this morning on the 
interrelationship of striped bass and bluefish and lots of 
other species along the Atlantic coast follows up on a hearing 
that you held in Toms River last year. And so, I'd like to 
begin by highlighting a couple of things that have happened in 
the period since then.
    Mr. Saxton. That hearing, for the record, was based 
essentially on bluefish, where they are habitating today, why 
they're not as plentiful in shore areas.
    Mr. Dunnigan. Right.
    Mr. Saxton. Proceed.
    Mr. Dunnigan. Thank you.
    The striped bass population along the Atlantic coast, Mr. 
Chairman, continues to grow, continues to show all of the signs 
that we've been watching for the last couple of years of a 
recovered species and continuing to grow and growing well into 
the future. We're now in a position of having extremely strong 
year classes in many years out of the last six, and as a 
result, we can look forward to having productive and viable 
striped bass fisheries well into the future, so long as we 
maintain a cautious and prudent management program. And the 
States that work through the Atlantic States Marine Fisheries 
Commission are convinced that that's what they have underway.
    Bluefish continue to appear to be in trouble. There was a 
new stock assessment that's been done since last year. It 
generally tends to reaffirm all of the findings that we had had 
before, that the resource continues to suffer from a lack of 
availability, probably due, mainly, to a failure of recruitment 
on an ongoing basis over a number of years, and that we need 
to--the fishery is overfished. In a legal sense it's 
overfished, because the fishing mortality rate is higher than 
the rate contained in the Cooperative Fishery Management Plan 
that the commission and the Mid-Atlantic Fishery Management 
Council have. And so this is a species that we need to continue 
to be concerned about and to devote attention to.
    On the question of interactions among species, what we have 
had since last year, really, is the beginnings of some good 
work that needs to be done to look into this issue, and I think 
that it's a direct result of the inquiries that the committee 
made last year.
    Some funding was provided in the fiscal 1997 budget, as Mr. 
Schaefer testified earlier. That funding is making its way 
through the system and getting out to people like Ken Able and 
others, so that the important work can be done to continue to 
follow up on the concerns that you have, and, frankly, they're 
concerns that are reflected by all of the managers of these 
fisheries along the Atlantic coast.
    Mr. Chairman, I guess part of the sad news is that the 
administration's proposed budget for fiscal 1998 didn't pick up 
on the leadership that Congress exerted last year in putting 
this funding into the budget for the National Marine Fishery 
Service, that $785,000 is not included in the President's 
request.
    And we think that that's very important funding. The 
Atlantic States Marine Fisheries Commission supports that work, 
believes that it needs to be continued if we're going to ever 
get to the bottom of some of these very difficult and 
controversial issues about the interrelationship of species, 
and we would strongly encourage the Congress to continue its 
leadership in this regard and do what you can to try to get 
that funding back into the budget for fiscal 1998.
    Mr. Chairman, with that, I think I'll let the time go to 
the other members of the panel. Again, it's a pleasure to be 
here, and thank you very much for inviting me.
    [The prepared statement of Mr. Dunnigan may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Jack. Our next witness, 
Dr. Ken Able, is the Director of Rutgers University Marine 
Field Station, and at the current time is using some of those 
Federal moneys that Jack Dunnigan just talked about. We got the 
$785,000, I believe, is the correct number this year, and Jack 
is concerned about continuing that program next year, and Ken 
Able is the guy who is carrying out that program. So Ken, we 
are anxious to hear from you.

STATEMENT OF KENNETH ABLE, DIRECTOR, RUTGERS UNIVERSITY MARINE 
                         FIELD STATION

    Mr. Able. Thank you very much for inviting me to this 
session this morning.
    I'll make my comments very brief. Many more details are 
provided on the written testimony.
    One of the reasons we're here today is that fish life 
histories are very complex. They go through many more stages 
than mammals and birds and that kind of thing, and so they're 
very difficult to--very difficult to understand. Larvae act 
differently than the juveniles. The juveniles act differently 
than the adults. And so understanding their life history is of 
paramount importance, because they often act as different 
species.
    Thus, understanding interactions have to cover all these 
life history stages. And that's why I've provided some 
information on the first year in the life of these two species 
in my written testimony.
    I focused on the first year for this testimony, because, 
and I think most fisheries, biologists around the world, would 
probably agree that 99.99 percent of the mortality that occurs 
in the life of a fish, or in the population of a fish, occurs 
during that first year.
    And that's probably a worldwide consensus on that kind of 
issue. And so, much of the emphasis should be placed on that 
first year. Unfortunately, we don't know much about that for 
many species, even those of economic importance, and that 
includes striped bass and bluefish, for example.
    In addition, we have to realize that many of our 
populations in the mid-Atlantic, by including these two 
species, are highly migratory. So they're crossing State and 
Federal boundaries all the time, and that makes management a 
lot more of an issue.
    But again, they have complex life histories. And that 
simply is the reason why we don't understand everything that 
should be going on today. If it were simple, we'd have all the 
answers. We clearly do not. And the only way to arrive at those 
answers is much more attention.
    As an example, bluefish spawn in--south of Cape Hatteras 
during the spring, and many of those larvae move up into 
estuaries like Barnegat Bay into the spring. They find their 
way up there through regular patterns, being carried up by the 
Gulf Stream and so on. The adults also move up and spawn off 
the Jersey coast, and those individuals come in. So we have two 
groups of bluefish, young bluefish, coming in every year, in 
the spring and the fall.
    Some originate south of Hatteras off North Carolina, South 
Carolina; some originate off New Jersey. Again, which of those 
groups contributes most to recruitment? It varies from year to 
year. But again, an example of a level of complexity that we 
don't quite understand.
    Striped bass migrate long distances to go up into 
freshwaters to spawn. What controls their movements, the 
migration of the adults and how those young survive is unknown. 
It is not easy to say what these answers are. And then if you 
talk about interactions between these two, it's very difficult.
    If you talk about interactions between these two and their 
prey species, the question becomes even more difficult.
    Is it impossible to arrive at some answers? Probably not, 
but it's going to require much more attention than we've given 
them in the past.
    As an example, if you just look at the life histories of 
the two species, as I provided in the written testimony, they 
seem to overlap, primarily in estuaries, during their first 
year and primarily in large estuaries. So that maybe if we are 
intent on looking at interactions, that's where the effort 
should focus, in the Hudson River, in Delaware Bay, in 
Chesapeake Bay.
    Unfortunately, Chesapeake Bay, where we know most about 
many species, is not represented at Barnegat Bay. They're very 
different in their morphology, in the number of people that 
live around them and the pollutant levels and so on. So 
studying Chesapeake Bay intensively does not allow us to simply 
extrapolate to other systems, such as Barnegat Bay.
    So there's a spacial component as well. We need to study 
many of these different estuaries. It's a daunting problem.
    I think we could make some progress. There has been 
significant progress, such that now we know something about 
what controls striped bass survival, and we're doing a much 
better job, and therefore, there are more striped bass around. 
It would be nice if we could say we could do the same thing for 
bluefish.
    I'll simply end my comments by saying there are complex 
life histories, there's much to be learned, we think we can 
make significant end roads, and we're willing to do anything we 
can to help in this goal.
    Thank you.
    [The prepared statement of Mr. Able may be found at end of 
hearing.]
    Mr. Saxton. Ken, thank you very much. I look forward to the 
question period.
    I'd like to, at this time, introduce Charles Bergmann, with 
the Lund's Fisheries in Cape May. Obviously, a very important 
aspect of New Jersey life is the commercial fishery, and we 
welcome you here this morning, Mr. Bergmann.

STATEMENT OF CHARLES BERGMANN, LUND'S FISHERY, INC., CAPE MAY, 
                           NEW JERSEY

    Mr. Bergmann. Thank you, Mr. Chairman and Congressman 
Pallone.
    Thank you for giving me the opportunity to testify before 
you today. First of all, I need to make a disclaimer. I'm a 
member of the New Jersey Marine Fishery Council and, as you 
note on the card here, the Mid Atlantic Fishery Management 
Council.
    My testimony today may or may not be indicative of their 
feelings, but it's my own testimony and not theirs.
    Striped bass spawn in the estuary systems along the 
Atlantic coast. As noted in the studies in the Chesapeake Bay, 
Delaware Bay, Little Egg Harbor, and the Hudson River 
estuaries, the diets vary within these systems but hold to the 
same pattern.
    The very young bass primarily feed on invertebrates, worms, 
shrimp, small fish, at age one. Striped bass feed on 
invertebrates during the first--first of the year and then 
gradually switch to invertebrates in the latter part of year 
one. The diet at this time varies according to which estuary is 
studied. The most common sources of forage include bay 
anchovies, Atlantic menhaden, weak fish, spot, herring, summer 
flounder, naked goby and bluefish.
    After year two, their diets consist almost entirely of fin 
fish and sand eels.
    Bluefish, on the other hand, spawn offshore, depend 
entirely on winds and tides to move the larvae into the 
estuaries. During this process the bluefish larvae must pass 
through large schools of Atlantic mackerel which are hungry 
predators of the young bluefish.
    After surviving the feeding frenzy of the Atlantic 
mackerel, they must now avoid the increasing presence of age 
two striped bass. Like the striped bass, the bluefish diet 
consists primarily of bay anchovies, Atlantic silversides to 
year one. From year one through year two, the diet is mostly 
Atlantic menhaden. Years two and older bluefish prey upon 
spots, croakers and weak fish.
    In a study done by the New Jersey Department of 
Environmental Protection, Division of Fish, Game and 
Shellfishes, it was pointed out since two-thirds of the 
recreationally and commercially important fish species along 
the Atlantic coast are estuary-dependent at some life stage, 
the study of estuarine food webs has a number of management 
implications.
    Fluctuations in the abundance of estuarine forage organisms 
may have profound effects on the year to year abundance of 
harvestable fish. In spite of this, management and 
environmental protection actions have generally been geared to 
tolerance levels exhibited by target fish species, ignoring the 
possibility of higher sensitivity to forage fish to pollution 
and habitat loss.
    This study was done in 1979, and with Mr. Saxton's clean 
water bills and the new requirements of the Essential Fish 
Habitat of the Magnuson-Stevens Act, this will surely help to 
answer some of these concerns.
    Many have taken a position that the harvest of menhaden has 
increased to a point that there is not enough to hold striped 
bass and bluefish for recreational anglers.
    One could answer this with facts. The harvest of menhaden 
in the Chesapeake Bay comprise 40 percent of the total coast 
harvest. And the harvest of striped bass by anglers in the same 
bay has risen from approximately 130,000 fish in 1990 to over 
600,000 fish in 1996.
    All this was done with 40 percent of the coastwide 
production of menhaden. Earlier this year, one group used the 
forage issues to stop an IWP in New Jersey. This group stated a 
concern that Atlantic mackerel is a forage for bluefish, but 
what has been pointed out, the reverse is true. Atlantic 
mackerel prey upon bluefish.
    There have been numerous papers done on the feeding habits 
of both species, but little on what effect, if any, the 
predator/prey relationship has on the recruitment of each 
species.
    One study has been approved, but as yet, funding has not 
been appropriated. This research, as well as other projects 
related to water quality, need to be done.
    Mr. Chairman, I wish to thank you for your recent meeting 
with Mr. Schmitten regarding the joint management of squids, 
another very important forage fish. And another important 
forage fish that needs to be addressed is the Atlantic herring. 
I would invite you, Mr. Chairman, and Congressman Pallone, to 
join Frank LoBiando in introducing or co-sponsoring a bill to 
protect these species.
    Mr. Chairman, I again wish to thank you and assure you the 
Cape May Seafood Association is prepared to work with you and 
your staff on the predatory/prey issues in the future, as well 
as to participate in any discussion with other subjects of the 
commercial and recreational fishing industries.
    I'd be pleased to try to answer questions at this time.
    [The prepared statement of Mr. Bergmann may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much, Mr. Bergmann.
    Mr. Tom Fote of the Jersey Coast Anglers Association.

 STATEMENT OF THOMAS P. FOTE, LEGISLATIVE CHAIRMAN, NEW JERSEY 
                   COAST ANGLERS' ASSOCIATION

    Mr. Fote. The Jersey Coast Anglers Association would like 
to thank Congressman James Saxton for holding this field 
hearing on this important subject in New Jersey and Congressman 
Frank Pallone for attending the hearing.
    JCAA is aware that both congressmen understand the 
importance of ecosystem management to the citizens of New 
Jersey.
    This is a subject near and dear to my heart. The more I 
learn about fisheries management, the more I realize that we 
cannot manage interrelated species one at a time. Ecosystem 
management is looking at the interrelationships of species and 
managing these species by their interdependency on each other 
and other environmental factors.
    To me, this means that every time we take an action that 
impacts one species, we need to consider the effect on all the 
species. In the marine environment, every species is a support 
for the entire ecosystem. We might be able to overfish one 
species without causing a dramatic change in others; however, 
once we begin to decimate the food stocks for the species, like 
striped bass or bluefish, we cannot help having a serious 
negative effect on the species' total population.
    Some species are more adaptable and can find alternative 
forage sources to augment their diet. Striped bass and 
bluefish, as juveniles, feed on similar prey. Striped bass, 
however, are opportunistic feeders. As adult they feed by 
sight, sound, and smell. They will eat almost anything that 
swims in the bays, oceans, and rivers.
    When we impact their basic diet, we may not see a dramatic 
decrease in striped bass population, because they adapt by 
eating something else and have a more varied diet to choose 
from.
    Bluefish, however, have very different feeding habits as 
adult fish. They are primarily sight feeders. They have--we 
have seen a faster change in the bluefish population than with 
striped bass due to the decline of menhaden, squid, sand eels, 
herring and butterfish.
    When forage species were particularly prevalent in the 
1970's, both predator species were eating the same abundant 
forage species, and both predator stocks were in abundance.
    Even though striped bass appear more adaptable and able to 
maintain their numbers over a short haul, if we continue to 
destroy the forage base, we will eventually see the same result 
as we've seen with bluefish. The striped bass, because of their 
ability to adapt to a wider range of forage species, have a 
broader support system. Still, we can only remove so many of 
their supports before the fishery collapse.
    The problem will not just be at the last action we take, 
but all the actions we have taken, cumulative over the years.
    The species that play important roles in the historical 
diets of both striped bass and bluefish are menhaden, sand 
eels, squid, mackerel, shad and river herring. My written 
testimony contains the relevant statistical data.
    The point is that a historical staple dietary sources of 
striped bass and bluefish are under attack and will surely 
damage those and other key species' viability.
    In the ocean, the study of ecosystem management is complex. 
When we overharvest menhaden, other species like squid, sand 
eels, mackerel, which have historically made up the difference 
in the diets of striped bass and bluefish, the stocks of these 
species have now declined and have left few alternatives to 
supplement the diet of striped bass and bluefish.
    For the last 30 years NMFS has continued to declare some 
species, especially forage fish, as underutilized. With the 
collapse of historical fisheries, many commercial fishermen 
have begun to harvest these underutilized species. There has 
been a dramatic increase in the harvest of bunker, herring, 
squid, ling and whiting.
    NMFS is not the only fisheries management regime at fault. 
For example, the menhaden board at the Atlantic States Marine 
Fisheries Commission consists of five States with the greatest 
vested interest in the commercial harvest and five members of 
the commercial harvest industry.
    Can I expect them to practice ecosystem management? All 
boards need to include a balance of all user groups and members 
who are primarily interested in ecosystem management.
    We are totally destroying the delicate ecological balance 
of nature by our unchecked overfishing, and this will result in 
a dramatic shift in all predator/prey relationships in our 
ocean.
    In looking at the available data and the natural history of 
bluefish and striped bass, clearly, there's a scarcity of data 
after 1980. Since the 1980's, we have spent and continue to 
spend millions of dollars on monitoring and modeling of striped 
bass. In comparison, only a small percentage of the money has 
been spent on collection of biological information.
    After 1980, fisheries managements placed the emphasis on 
population analysis, a simple form of bean counting. Now with 
the reduction of available funds, scientists are directed 
toward using statistical modeling procedures as a cost saving 
method. They spend most of their time developing and 
maintaining these unproven population estimating techniques.
    Fisheries biologists today receive more training in 
statistics than in biology. A growing number of economists, 
statisticians, and specialists in population dynamics are 
sitting on, technical, a committee. Frequently, the goal 
appears to be the development of statistics that look good on 
paper rather than reflecting what is occurring in the 
ecosystem.
    This hearing emphasizes forage species and their 
interrelationships. However, when we look at ecosystem 
management we must consider many areas. We must consider 
habitat loss, chemical contamination, physical change, and 
water quality. Without all the pieces to the puzzle we cannot 
understand the problem and thus never solve the problem.
    And when I'm looking at Barnegat Bay, and I sit on the 
policy committee of the Barnegat Bay Estuarine Program, which 
Congressman Saxton and Congressman Pallone helped get some 
funds for and get us going, we're looking at those ecosystem 
problems. We're looking at what's trying to happen there.
    I was listening to Ken Able's discussion, and basically 
looking at the young. We also need to look at the adults. In my 
written testimony I compare them to the lemmings. When they 
find their available food source is gone, they commit suicide, 
they basically march into the ocean.
    Well, when they do that, then the adults stop producing. 
They stop producing young. They either abort their young, or 
they, basically, just don't have any. And they die off. So it 
also, when we impact the food source of the adult, we're going 
to have impact on the other future generations, because, 
basically, they'll cut back. They just won't reproduce.
    And I see the red light is lit, so I'll--one parting 
comment. If you want to learn more about the Barnegat Bay 
Estuarine program, as Congressman Saxton knows and Congressman 
Pallone, we're going to put on the Barnegat Bay Festival May 
17th, and we've got like 24 different stations throughout the 
whole estuarine program to cover all those points, to show you 
what's going on.
    And there's a lot of different things. You want to learn 
how to fly fish or just want to learn the vegetation in the 
pine barrens. So take a look at the list that's out there.
    [The prepared statement of Mr. Fote may be found at end of 
hearing.]
    Mr. Saxton. Thank you very much. Thank you, Tom, for your 
testimony, also.
    Mr. Jim Donofrio is the executive director of the 
Recreational Fishing Alliance.

      STATEMENT OF JAMES A. DONOFRIO, EXECUTIVE DIRECTOR, 
                 RECREATIONAL FISHING ALLIANCE

    Mr. Donofrio. Good morning, Congressman Saxton, Congressman 
Pallone.
    I want to thank you for your leadership in renaming the 
Subcommittee to conservation. Putting that word in there was--
it just shows that the tone that you're setting, which needs to 
be set--the reason why I say that, because NMFS was once called 
the Office of Conservation and Management, and I don't think--
we saw very little of either of those over the years, and now 
we have the Office of Sustainable Fisheries. And as we all 
know, anyone who's ever fished or any scientist will tell you, 
in order to have sustainable fisheries, we need to have 
sustainable forage.
    So I want to thank you for holding these forage fish 
hearings. I think this is a step in the right direction of 
having sustainable fisheries and living up to the name on the 
Magnuson-Stevens Act.
    It is the opinion of the RFA and our membership, at our 
board meeting we had in Miami, that there is a looming forage 
fish crisis across the country. Right now, the east coast, we 
have problems and also on the west coast with a huge squid 
fishery that has developed inside of State waters in 
California, a little bit outside. So it's a touchy problem with 
no management. But we see this as a national problem, and I 
think the 105th Congress can address this, and I believe with 
your leadership and Mr. Pallone working in this spirit of 
bipartisanship, we will achieve that.
    Recreational fishermen and commercial fishermen all agree 
that forage fish management is prerequisite for sustainable 
fisheries. Big fish eat little fish. And NMFS has never managed 
the fisheries of this nation with that consideration. It has 
been single species management, and, with that, we can never 
truly have sustainable fishery stocks.
    The designation ``underutilized'' amounts to no more than a 
death sentence for species. With that type of one-dimensional 
thinking, as witnessed in the decline with the shark fishing. 
The finning operations for a foreign market, these fish were 
deemed underutilized, and now we have a stock decline that 
might take over 30 years or longer for a recovery. And that 
situation is not acceptable anymore.
    The other comment I want to make here, and I'm just doing 
an overview, Mr. Chairman, if you don't mind. Fish are not 
manufactured goods, and they can't be viewed in the same 
marketing perspective as manufactured trade. And I hear 
commercial fishermen say to me, ``Well, Jim, you know, we trade 
Toyotas, we do this back and forth.''
    We can't do that. This perspective needs to be stopped, 
and, in fact, if you wouldn't mind, I'd like to refer to a 
document here, which actually talks about that. It's a study, 
and it's done by the Institute for Environmental Negotiation at 
the University of Virginia, Richard Collins.
    And I'd be glad to bring a copy to Sharon and send it down 
to her when I'm down there tomorrow.
    Mr. Saxton. Please do.
    Mr. Donofrio. Yeah. Let me just read to you here about the 
market in here.
    It says fishery issues present a classic case of market 
failure. As explained by resource economists and environmental 
theorists, a market failure exists when the conditions 
necessary for a free market to work effectively are absent. The 
fishermen's problem is a significant example of market failure 
toward commons problems. And we believe this is a tragedy of 
the commons. It's not so much the fishery you're talking about, 
it's the balance in the ecosystem. It's the balance that is the 
tragedy of the commons, and this is what we have here when 
we're addressing forage fish.
    It also notes in here that fishing under this, what happens 
is that in this type of a market you fish beyond maximum 
sustainable yield.
    Because these are not manufactured goods, they're not 
planted, these are wild fish stocks. So this perspective has to 
be changed, and I implore upon this Congress to do that.
    Also, as far as NMFS goes, the United States National 
Research Council has made this observation. Fishery scientists 
and managers have given virtually no consideration to 
consequences of removing target species on the structure, 
dynamics, and productivity of the ecosystem, of which the 
target species are a component.
    Another fishery scientist observes that part of the problem 
with fisheries management is the tendency to manage one species 
at a time. Marine communities are diverse, and their food 
chains are complex. In many instances, one fishery is targeted 
a predator, while another is targeted prey. Yet there is no 
management coordination between the two, and that backs up my 
statement in my original testimony there.
    On the same note it's been observed that sustainable fish 
populations depend on biological integrity of the marine 
ecosystem, which is undermined by overfishing.
    Coordinated multi-species management based on recognition 
of the interaction amongst fishers, sea birds, mammals, and 
their habitats should be developed and implemented.
    I'd like to ask the Congress, and with your leadership, Mr. 
Saxton, to seek out the appropriations to fund the 
universities, the scientists that would do the multi-species 
management. I know it's a very expensive deal, it's very 
complex, but we have to look at our fisheries more seriously, 
and I don't think the Department of Commerce has done that. I 
don't think they recognize the value, the true value of our 
commercial and recreational fisheries sustainable for the long 
time.
    And let me tell you the feeling I get from addressing clubs 
all over the country. I just got back from a trip in Florida. 
Mike Donovan, our development director, got back from a trip in 
Massachu-

setts, and the people on the street feel that the intent of the 
Magnuson has never been lived up to. And this is that tragedy 
of the commons. We felt that we got the foreigners out of here, 
but NMFS has encouraged foreign markets, so what have we 
accomplished?
    And I think what we need to do is address this multi-
species management system, put America first, and if there are 
extras, truly extras, in the ecosystem then fine, develop these 
markets, but I think the markets were encouraged prior to 
having any realistic science on these--on this multi-species 
interaction. And I think that needs to be considered.
    I want to thank you for the opportunity to testify today. 
Thank you, Mr. Pallone.
    [The prepared statement of Mr. Donofrio may be found at end 
of hearing.]
    Mr. Saxton. Thank you very much.
    For any of you who are in the audience who think fisheries 
management is simple or easy or clear-cut, you have just heard 
testimony from five people who demonstrate that it is not.
    Essentially, we're trying to arrive at Jack Dunnigan's 
point of view as one of the partners in the regulatory process, 
and Frank and I from being partners in the legislative process 
that relate to this issue. We try to sort through all this and 
come up with legislative and regulatory schemes that accomplish 
everybody's final goal, which is more of all species.
    This morning it seems to me that there have been two 
notions that have been advanced, and I guess I would like to 
ask some questions about those two notions.
    One notion, which was originally introduced here this 
morning by Ken Able, I think is fascinating. And that is that, 
perhaps, of all the things that we ought to be looking at, 
perhaps the most important is the first year of life for, 
particularly I guess, the Atlantic bluefish species. And 
perhaps that's something that we don't know a whole lot about.
    The other notion also, certainly, has a basis in fact, and 
that is that big fish have to have little fish to eat or 
they're not going to do well or they're not going to stick 
around the parts where the little fish don't live anymore.
    So those are the two notions that I think I heard this 
morning, and I guess the first is, Ken, let me just pose this 
question to you, and then anybody else can jump in who wants 
to.
    While your contention is, and obviously, we appropriated a 
significant amount of money for you to advance your notions, 
because you're the expert, if the notion is that the primary 
problem or one of the primary problems or a major problem 
exists with regard to environmental factors that affect the 
first year of life, then how do you put into perspective the 
environmental, including the food issue, fish food issue, for 
that period of life after the first year?
    Mr. Able. Well, let me preface my comment by saying I feel 
much more comfortable with my boots on and a net in my hand 
than a microphone in front of me. So just bear with me a 
minute.
    I clearly believe that there needs to be a focus on the 
first year in the life of fishes that--in order to understand 
some of these fishes. That does not mean that adults are not 
important. Clearly, they are. If they're not around there's no 
reproduction, and there will be no little fish.
    I think many of the issues of the predator/prey 
interactions, some of the most important issues might actually 
be happening during the first year, as well, though.
    From some of our studies, it becomes clear that if an 
animal grows slow during the summer, it may survive, but it'll 
grow more slowly. When it enters the winter we see increasing 
evidence of over-winter mortality, and these fish probably 
become prey or simply die due to cold temperatures during 
winter migrations, and they disappear. But we have no record of 
that mortality. But that mortality may have been initiated 
during the summer when they grew--when they grew at a slower 
than normal rate.
    So that the mortality may have occurred during the winter, 
but the cause of that mortality was actually slow growth in a 
given habitat during the summer. So that, again, commenting on 
the complexity of these interactions, but the likelihood that 
predator/prey interactions, i.e., big fish eat little fish, 
that also can happen during the first year, as well.
    To pretend that I know specifically how to answer that 
question, I just won't do that.
    Mr. Saxton. Mr. Fote.
    Mr. Fote. If we look to the environment off of New Jersey 
in the '80's and the '70's, we saw all kinds of sand eel 
population. When those bluefish and striped bass migrated down 
to the south, they would basically stay in this locale the 
whole month of November and December, just gorging themselves 
of the sand eels.
    When they went down south they were fat fish. They had a 
lot of body fat, so they were able to endure the harsh winter, 
and they were able to winter over.
    When the sand eel population started down--dying in '89, 
you look to this huge crash and it started in the bluefish 
population. If you look at statistics, we went for catches in 
the early '80's to 175 million pounds, something like that, 
recreationally, down to about 34, and it's even getting less 
and less every year. Why?
    Maybe, as we look at nature, we know that when an adult is 
under stress, when it basically cannot store body fat, when it 
cannot be in a healthy condition, it just does not produce 
young the following year. I mean, basically it takes over. 
Well, they--a lot more--a lot smarter about how to develop 
their environment than we seem to be. When they're under stress 
they don't reproduce, because they know their young will not 
survive.
    And I think that plays. And Ken's right, if we don't study 
the ecosystem in the bays, and that's what we're doing in the 
Barnegat Bay Estuarine program, trying to get that information, 
we have no idea what the effect of power plants, the suction 
that's going on, I mean, with Oyster Creek over the years, how 
it affects the bay anchovies.
    Same thing with Salem Nuclear Power Plant. We know we lose 
thousands--hundreds of millions of bay anchovy every year, 
like--something like 50 percent of the population. And 
especially in the larvae stage, 'cause that's when they get 
sucked in the power plant. So is that affecting the weak fish, 
it's defeated in that early stage. And that's the whole kind of 
interrelationship.
    It's like a--Congressman Saxton knows I'm familiar with 
bicycle wheels. You can break one or two spokes and ride on the 
wheel, but as soon as you break a couple of more, that wheel 
collapses, and that's what we're doing with the whole system.
    Mr. Saxton. Any others?
    All right. Let me turn, at this point, to Mr. Pallone for 
whatever questions he may have.
    Mr. Pallone. Thank you, Mr. Chairman, and I appreciate all 
your testimony, but I have to say that, I guess, as Jim was 
saying earlier, I get, in many ways, more confused listening to 
the different views than even before you started. Let me just 
point out why I'm confused, and you tell me if it's because you 
disagree or it's because I'm just not understanding completely.
    I notice that Mr. Dunnigan talked about--when he was 
talking about interaction between bluefish and striped bass, he 
said that--he mentioned that, in the testimony, that a large 
portion of the bluefish diet consists of young striped bass, 
and that one study suggested that predation by bluefish was the 
greatest source of mortality for juvenile striped bass. And it 
is possible that the proportion of striped bass in their diet 
could increase the striped bass--in abundance increase.
    So if I understand that comment it seems to suggest that as 
the number of young striped bass increased, then the number of 
bluefish would also, because there'd be more for them to feed 
on.
    But then I'm listening to what Jim Donofrio said, which 
basically was that both species are feeding on forage fish, and 
that if the forage fish are overharvested, the bluefish, 
because they--I mean, the striped bass, because they seem to be 
more dominant--well, I guess, get more and the bluefish 
populations could decline, because there's not enough forage 
fish left for them.
    And then I'm listening to Tom, and you seem to think, Tom, 
that, at least--unless, again, I'm just going by the testimony 
here, you mention this study by Dr. Lionel Walford at NMFS at 
Sandy Hook, who said, essentially, that his research didn't 
find any correlation between the abundance of bluefish and 
the--of one species and the decline of the other.
    I guess, assuming we're talking about striped bass and 
bluefish, as well as other species. So I'm totally confused, 
unless--it seems that you all disagree on what's happening.
    Mr. Fote. No, I think we all agree.
    Mr. Pallone. OK, well, then tell me how, because I'm 
confused.
    Mr. Fote. What we're saying here, that we can't--the 
studies basically don't show if the stocks of bluefish are up 
high, will the stocks of striped bass be low? It doesn't show 
that.
    Mr. Pallone. OK.
    Mr. Fote. OK, so there's no absolute data out there. What 
we do see is when the stocks of forage fish are up and down, 
then some species react to that, as far as the drop in forage 
fish, faster, because they're less adaptable as adults.
    If you look at bluefish and striped bass, they both feed 
similarly when they're small and juveniles. They feed on 
shrimp, grass shrimp, and everything else. As they get larger, 
they have a different kind of feeding habits, and one relies 
more--if you watch bluefish, it relies more on menhaden, 
mackerel, fish that swim.
    If you look at a striped bass, certain times of the year 
it's eating nothing but crabs, certain times eating nothing but 
sand fleas, and certain times eating worms. It's more 
adaptable. So it has a greater food--I mean, a food base, like 
the panda. If you look at--in the forest, when the bamboo all 
dies, they all die.
    Mr. Pallone. Right.
    Mr. Fote. And other species will basically survive, because 
they eat the panda that's dying, because they can mix their 
diet up, and that's more, I think, what we're----
    Mr. Pallone. Well, Tom, when I was reading through the 
different testimony, to me, at least, it seemed that what you 
were quoting made the most sense, in the sense that you were 
suggesting that both feed on forage fish, and to the extent 
that those disappear, there's not sufficient supply, you know. 
It impacts both of them.
    But what I still don't understand if there's a direct 
relationship between the two species, or is it just that, you 
know, as the forage fish disappear there's not enough for both, 
and then we don't know who dominates or who ends up surviving?
    Mr. Fote. It's not a simple answer, 'cause as Dr. Able 
pointed out, striped bass form in bays and estuaries. It's a 
lot easier to affect the adult population by nets, recreational 
fishing and everything else. Bluefish run offshore, so they 
basically are less susceptible to that spawning targeting. So 
that can also affect as--Able, I think, can talk for himself, 
but pointed out, it's a whole lot more complex than simple nuts 
and bolts. I mean, if we, basically, could give you all the 
answers of what the interrelationship is, I mean, I'd be worth 
a million dollars instead of what I'm worth.
    Mr. Pallone. Well, I'm not trying to put you on the spot. I 
mean, I guess my conclusion of all this, and I'd still like to 
hear from the others, Mr. Chairman, if that's possible, my 
conclusion is that we clearly need a lot more studies, because 
different people are coming to different conclusions, some of 
which may overlap, but clearly, there's a lot more that needs 
to be done.
    Mr. Saxton. Let's hear from Mr. Bergmann.
    Mr. Bergmann. Congressman Pallone, just for one issue on 
bluefish, we could stop fishing on bluefish entirely, 
recreationally and commercially, and just completely stop, and 
not necessarily have an effect on their abundance in the 
estuaries.
    As has been noted, they spawn offshore, and they rely on 
the tides winds to bring them in, into the estuaries. If they 
don't make it into the estuary system, they die. And I think 
there needs to be more studies done on the effects of water 
temperature, salinity, and the clean water on these animals.
    Mr. Saxton. Mr. Donofrio.
    Mr. Donofrio. Thank you, Mr. Chairman.
    Mr. Pallone, thank you. I want to answer Congressman 
Pallone's question regarding my testimony. As you know, I am 
not a fishery scientist. In my testimony I make note of my many 
thousands of days on the water. I still have my 100 ton 
operator's license. And my primary fishery, in my charter boat 
days, of course, during the summer months, was bluefishing. And 
then that would interface into striped bass late in the fall. 
And based on my on-water observations, as I started as a deck 
hand in the '60's, when we had--I believe we had a really truly 
recovered bass fishery, when we didn't have the truncation in 
the sizes, and we had tremendous bluefish, and especially one 
of our hot spots was the Shrewsbury rocks and the acid waters.
    And there was tremendous amounts of schools of both. But at 
the time, we didn't have a squid fishery offshore that was 
developed for foreign markets. We didn't have a huge menhaden 
business off our coast. The menhaden industry, reduction 
industry, actually worked south and stayed in their own waters. 
They didn't have to venture this far.
    So we had a lot of bunker, a lot of menhaden, we had sand 
eels, we had a multiple variety of bait and enormous amounts of 
them. And bluefish and striped bass are highly competitive; 
however, striped bass are such hogs that they will compete and 
push the bluefish out of an area.
    And I believe Michael Laptew from Laptew Productions sent 
the Chairman a video for the committee to look at. These are 
underwater shots he does with a snorkel as not to spook the 
bass. It shows striped bass and bluefish feeding, and you can 
clearly see here how the striped bass are the dominant feeder.
    And you know, we knew that for years. You could see it on 
your recorders and all, but here's documented photos of these 
fish feeding.
    Mr. Pallone. But the main point, Jim and Tom, that both of 
you are making, the way I understand it is that it's the fact 
that a lot of the forage fish have disappeared that creates 
this competition and ultimately means that one or both stocks 
decline.
    Mr. Saxton. Let me--Frank, can I break in? Let me just 
throw a little gas on the fire here.
    Jack, I have a series of faxes here which have Atlantic 
States Marine Fisheries Commission on them, and in this group 
of papers there's what appears to be information that says that 
the menhaden population is extremely well off today. This is a 
chart, which you're familiar with, yes?
    Mr. Dunnigan. Um-hum.
    Mr. Saxton. OK, this says that the worst time for menhaden 
looks--appears to have been in 1975, and then the stock 
recovered, and then they got nearly in trouble again in 1985, 
and that by 1995 the stock of menhaden is bigger than it has 
been since anytime since 1965. Is that what this chart shows?
    Mr. Dunnigan. I don't actually have it in front of me, but 
I think that that's probably accurate. Certainly, if it 
reflects through the assessments through last year that would--
that would be consistent.
    Menhaden are a very short-lived species, very much 
dependent on recruitment. They're fished as age zeros and age 
one fish, so you'll see these sort of wilder fluctuations in 
that kind of a fish than you would in something like striped 
bass that lives a long time. And you can have more stability 
because of a larger number of age classes.
    Mr. Saxton. Is there some reason why nearshore fishermen 
continually come up to me unprompted and say the menhaden are 
gone?
    Mr. Dunnigan. Well, I don't know. Your question, I think, 
to somebody on the earlier panel was, what would you tell a 
fisherman if that's what they said to you, and what I would 
tell them, not being a scientist, is that's very interesting. 
Let's go talk to the scientist and ask him what they're seeing.
    The Commission's Atlantic Menhaden Advisory Committee met 
in Richmond last week, and under the current menhaden 
management plan, every year we look at six different triggers. 
And they're either, you know, on or off, like a binary system, 
and they determined that one of those was met this year, and 
the fact that that trigger was met, and the one that was met 
was recruitment to the age zero population. So it appears that 
there was low recruitment last year in the coastal fishery. I 
would assume then that the 1996 year class isn't going to be 
all that strong. So we may see some of this coming down.
    The other five triggers were not met, and so the management 
board now will have to sit down and decide what to do about 
that.
    A similar thing happened a couple of years ago where that 
one trigger was met, and it was followed the following year by 
a very high recruitment.
    So this is a species where they tend to go up and down, 
there tends to be local instances of a lack of availability of 
them, and I think it would just be incumbent on going to look 
at the data.
    Mr. Saxton. So you're saying that the spike on that chart 
that I see may just be an aberration of a count at one 
particular time in the history of the species, and that it may 
not be----
    Mr. Dunnigan. That's right, and it may have just been one 
very strong year class. When you have a population that's made 
up of only a very few year classes, and in this case we're 
looking at two or three, you know, one very strong year class 
will tend to have that kind of an effect, just as one very poor 
year class will have a very strong effect moving the spawning 
stock back down.
    Mr. Saxton. OK, so that data may be suspect in terms of the 
total biomass of----
    Mr. Dunnigan. And it may not reflect where the resource is 
today.
    Mr. Saxton. OK. Frank, I'm sorry, I broke in on your----
    Mr. Pallone. No, that's all right.
    Mr. Fote. If you look at the old data on menhaden, you also 
will see that there used to be a lot of six and seven and 
eight-year-old class around. We don't manage that species for 
longevity, not for the many year classes.
    There are--they can grow to nine, ten years old. I mean, 
that's when they get the bigger bunker. They are longer living. 
What happens here, because we've been managing those species 
for reduction and for bait industry, is, basically, now 
truncated to small year classes, where it can be that function. 
There's not a lot of year classes left.
    I mean, if you look at some of the old data, which I looked 
at, there's six, seven-year-olds and eight-year-olds that made 
part of the market. After '65 you don't see that anymore, 
because we basically----
    The same way, if you look in the Potomac River back in the 
1830's, they could haul, say, 450 sixty-pound striped bass. 
Well, I don't think I've heard of 450 striped bass being on the 
whole east coast, I mean, in the last couple years. Because 
there was also 3 million--300 million shad being caught and 300 
million river herring. So that was different circumstances, and 
as we basically truncate the population, we truncate the size 
that we harvest out of there. It's going to make that much of a 
difference.
    Mr. Saxton. Jack.
    Mr. Dunnigan. Just, remember, Mr. Chairman, when you're 
going back and looking at fish from the 1830's, you're 
essentially looking at what today we would call a virgin 
population, an unfished resource. And you don't ever anticipate 
being able, over the long-term on a maximum sustainable yield 
basis, as the Magnuson-Stevens Act says, to be able to maintain 
that kind of a harvest.
    In a relatively unfished population, you will get very high 
returns when you first go into it and start fishing.
    So you know, looking at historical data, it's very 
interesting, and probably important for managers to consider, 
but it doesn't necessarily tell the whole story over the long-
term.
    Mr. Fote. If you look at the Potomac River information, 
which was very historical, 'cause it basically kept, they kept 
good records during that period of time. There was a huge 
amount of--they were in the Potomac River every five minutes 
with five-mile long nets. That's before we had--that by the 
1980's they had a collapsed fishery where they needed 18 
hatcheries going on. So they did impact, it wasn't a virgin 
fishery, and there was a lot of pressure on those fisheries 
during this period of time.
    Mr. Saxton. OK, we're going to go to Mr. Donofrio and then 
back to Mr. Pallone.
    Mr. Donofrio. Thank you, Mr. Chairman. To answer Mr. 
Pallone's question from before, I don't believe that the--this 
is my opinion--that the bluefish stocks are in decline. What I 
believe is that they're being displaced, and that's the point I 
was trying to make with the forage fish problem.
    In order to sustain two populations near the coast, you 
need to have a big variety of bait and enormous amounts of it. 
And what I think is happening, as witnessed in the Azures this 
year, there was a lot of big bluefish in the Azures. So they're 
going somewhere else. They're a highly migratory pelagic fish, 
and they will go. And I believe the recovering striped bass 
fishery, because of their ferocious appetite, they will take 
over the area, and if there's not a variety of forage fish, and 
as we all know, the bass were called squid hounds, and I don't 
know the last time I saw squid along the beach. Years ago they 
used to spin them up and we caught them, but it's just--there's 
less and less forage fish, and I believe that's the problem 
there between the two fisheries, not that there's a decline, 
maybe, in the stock, but I think that the nature of the striped 
bass is just pushing them out of the area.
    Thank you.
    Mr. Saxton. Mr. Pallone.
    Mr. Pallone. I just wanted to ask Tom Fote--you've 
mentioned this phenomena of using modeling, for example, and 
the statistical methods, if you will, as a cost saving device, 
as opposed to collection of biological information, and I know, 
Tom, you talk about that, not only in the context of various 
fisheries management plans, but also with dredging and 
environmental issues at different stages.
    And it concerns me. I'm not sure I fully understand. I just 
wanted you to comment on it a little more. I mean, what I see 
more and more with the EPA and with--and I guess also with 
NMFS--is just a statistical computer modeling without reference 
to actual data collection, fish samples, whatever.
    Just comment on that a little more, I mean, how that's 
affecting what we do and why you think it's not--or what do you 
think we should do to change it?, because obviously if the 
scientific data's not accurate, and the methods being used are 
not accurate, then we're going nowhere.
    Mr. Fote. When it was easy to do science and it was cheap 
to do science, that's what we did, we did a lot of biology. We 
took a--when Bruce Freeman and Ken Able and Tom McCloy went 
to--they did a lot of stomach samples to see what was going on 
with species.
    Right now it becomes very expensive, and also, we're under 
such pressure to produce so much stock for each individual 
sector of the commercial and recreational fishery, that we've 
got to prove our figures. So they've gone to this modeling 
technique. And some of them are very good, but they should be 
used as a tool, not as the last word. And the problem is, when 
we look at statistical modeling, it's only as good--I mean, my 
expertise is not fisheries management, as far as education. It 
was marketing management. And I learned a long time ago, you 
can do whatever you want with statistics when you put that--
with the information you put in there. And you get whatever 
answer you want out of the statistics.
    Modeling is a tool, but when it comes to the whereall, how 
we manage a fishery, summer flounder's that way, 'cause the 
model produces this way, we can allow the harvest, because the 
model does that.
    It's only as good as the information that's put in there. 
Some of the information has not been peer reviewed. Some of the 
information has not gone out to scientific journals so they can 
be questioned by other scientists. I mean, when we basically 
use--and we do pharmaceutical industry, you put it out in a 
magazine or the medical industry, and basically you get ripped 
apart by all your colleagues and made to feel inferior, because 
you didn't do this, this and that.
    We don't do that in fisheries management. We don't publish 
a lot of what we use. So other scientists can come in and say, 
``This is a problem here. You've missed a small piece.'' And 
we've corrected models going back. Every time I'm looking, we 
basically go back and say, ``Well, we left this out, now we've 
got to readjust the figures.'' We did that with recreational 
statistics. We had to go back 20 years and re-do everything. 
And who knows if the latest round of changes, basically really 
reflects the population.
    We also don't spend enough money on these statistical 
models. I mean, to get a confidence level very small, you've 
got to spend millions and millions and millions of dollars. 
We're not going to do that. We only spend a small amount to do 
the whole marine rec-

reational survey along the east coast. And we don't have that 
money available.
    Mr. Saxton. Can I ask Ken Able to just comment on the 
general notion of the accuracy of scientific data and peer 
review?
    Mr. Able. In the risk of threatening my own career, I could 
tell you that it's very difficult.
    Mr. Saxton. Frank and I do that every day, so----
    Mr. Able. Thank you, I appreciate that.
    It's very difficult to sample populations of fish. They're 
very mobile, they move around tremendously, that's one of the 
problems that the National Marine Fishery Service has, and any 
agency that tries to sample them, academic scientists, 
whatever. So that the degree of confidence you have in your 
numbers is variable, and if the results are peer reviewed and 
published in the literature, you often state that we expect the 
numbers to be 100 pounds or whatever per given area, but plus 
or minus 50 pounds, perhaps. That says that the answer may be 
50 or it may be 150. Best estimate is 100.
    That kind of variability is inherent in studying fish 
populations. And that's one of the difficulties that we 
encounter all the time.
    Obviously, if we put it in fishermen's terms, if they knew 
that they were going to go out and catch three trophy-size 
striped bass every time, they would go out and do it. They 
don't do that. Why? Because the fish are moving around, they're 
not feeding, they're doing a variety of things.
    So they have trouble in their own way of sampling fish 
populations. Everyone else does the same thing, too.
    So it's convenient to, you know, comment negatively on the 
National Marine Fishery Service data values and other people's 
values. It's just very hard to do. There's extreme variability 
in these populations, and that's what makes it difficult.
    If it was easy, we wouldn't be sitting here. We'd have all 
the answers. It's not easy. It's just not easy.
    Mr. Saxton. Let me ask you this, changing the subject 
slightly. We held a hearing a year ago on bluefish, and one of 
the notions was that bluefish have not diminished so much in 
biomass, they've just changed the location where we find them, 
and Mr. Donofrio just advanced that notion again, and that 
seems, from my point of view, to be a possibility. Do bluefish 
have an affinity for any particular geographic area of the 
ocean, or from a scientific point of view, are they fairly 
mobile?
    Mr. Able. They're fairly mobile, but those occurring on the 
east coast undergo more or less regular migrations up and down 
the east coast. The likelihood that bluefish from the east 
coast shore showing up in the Azures is not very likely in my 
estimation.
    They have regular migrations. The timing of those 
migrations are very, very, variable. They're often temperature-
dependent, but there are other things going on that we don't 
quite understand, so that I'd say on the east coast we know 
with some reasonable confidence what the migrations of the 
adults are like. We don't know what the migrations of the 
larvae are like, and that's why I get back to the point that I 
think that's the most unknown period in the--period that needs 
the most attention, the first year.
    Fishermen, both recreational and commercial, have a very 
obvious reason for focusing on the adults. That's what they 
want to catch, and that's where much of our fisheries 
management has focused in the past. It, in my opinion, needs to 
change, and we need to have increased focus on the early life 
history stages in order to understand what's going on.
    Will that solve all the problems? No, but I think it'll 
help.
    Mr. Saxton. Well, thank you very much.
    I have a lot of questions. I don't know that I have any 
questions further for this panel at this moment. I want to 
thank you for coming.
    Mr. Pallone, do you have any further questions?
    Mr. Pallone. No, thank you very much, and thank all of them 
and you, Mr. Chairman.
    Mr. Saxton. I just want to express the Subcommittee's 
appreciation for your being with us today, and I hope that we 
didn't ask any questions that made any of you uncomfortable, 
but if we did, that's normal in the fishery management 
business.
    So thank you for being here today, and I look forward to 
working with you all as we move forward to try to answer some 
of the questions that have been asked today and to fashion 
legislation and regulatory policy that will be beneficial to 
all concerned.
    Thank you very much.
    [Whereupon, at 12:50 p.m., the Subcommittee was adjourned; 
and the following was submitted for the record:]

[GRAPHIC] [TIFF OMITTED] T1073.001

[GRAPHIC] [TIFF OMITTED] T1073.002

[GRAPHIC] [TIFF OMITTED] T1073.003

[GRAPHIC] [TIFF OMITTED] T1073.004

[GRAPHIC] [TIFF OMITTED] T1073.005

[GRAPHIC] [TIFF OMITTED] T1073.006

[GRAPHIC] [TIFF OMITTED] T1073.007

[GRAPHIC] [TIFF OMITTED] T1073.008

[GRAPHIC] [TIFF OMITTED] T1073.009

[GRAPHIC] [TIFF OMITTED] T1073.010

[GRAPHIC] [TIFF OMITTED] T1073.011

[GRAPHIC] [TIFF OMITTED] T1073.012

[GRAPHIC] [TIFF OMITTED] T1073.013

[GRAPHIC] [TIFF OMITTED] T1073.014

[GRAPHIC] [TIFF OMITTED] T1073.015

[GRAPHIC] [TIFF OMITTED] T1073.016

[GRAPHIC] [TIFF OMITTED] T1073.017

[GRAPHIC] [TIFF OMITTED] T1073.018

[GRAPHIC] [TIFF OMITTED] T1073.019

[GRAPHIC] [TIFF OMITTED] T1073.020

[GRAPHIC] [TIFF OMITTED] T1073.021

[GRAPHIC] [TIFF OMITTED] T1073.022

[GRAPHIC] [TIFF OMITTED] T1073.023

[GRAPHIC] [TIFF OMITTED] T1073.024

[GRAPHIC] [TIFF OMITTED] T1073.025

[GRAPHIC] [TIFF OMITTED] T1073.026

[GRAPHIC] [TIFF OMITTED] T1073.027

[GRAPHIC] [TIFF OMITTED] T1073.028

[GRAPHIC] [TIFF OMITTED] T1073.029

[GRAPHIC] [TIFF OMITTED] T1073.030

[GRAPHIC] [TIFF OMITTED] T1073.031

[GRAPHIC] [TIFF OMITTED] T1073.032

[GRAPHIC] [TIFF OMITTED] T1073.033

[GRAPHIC] [TIFF OMITTED] T1073.034

[GRAPHIC] [TIFF OMITTED] T1073.035

[GRAPHIC] [TIFF OMITTED] T1073.036

[GRAPHIC] [TIFF OMITTED] T1073.037

[GRAPHIC] [TIFF OMITTED] T1073.038

[GRAPHIC] [TIFF OMITTED] T1073.039

[GRAPHIC] [TIFF OMITTED] T1073.040

[GRAPHIC] [TIFF OMITTED] T1073.041

[GRAPHIC] [TIFF OMITTED] T1073.042

[GRAPHIC] [TIFF OMITTED] T1073.043

[GRAPHIC] [TIFF OMITTED] T1073.044

[GRAPHIC] [TIFF OMITTED] T1073.045

[GRAPHIC] [TIFF OMITTED] T1073.046

[GRAPHIC] [TIFF OMITTED] T1073.047

[GRAPHIC] [TIFF OMITTED] T1073.048

[GRAPHIC] [TIFF OMITTED] T1073.049

[GRAPHIC] [TIFF OMITTED] T1073.050

[GRAPHIC] [TIFF OMITTED] T1073.051

[GRAPHIC] [TIFF OMITTED] T1073.052

[GRAPHIC] [TIFF OMITTED] T1073.053

[GRAPHIC] [TIFF OMITTED] T1073.054

[GRAPHIC] [TIFF OMITTED] T1073.055

[GRAPHIC] [TIFF OMITTED] T1073.056

[GRAPHIC] [TIFF OMITTED] T1073.057

[GRAPHIC] [TIFF OMITTED] T1073.058

[GRAPHIC] [TIFF OMITTED] T1073.059

[GRAPHIC] [TIFF OMITTED] T1073.060

[GRAPHIC] [TIFF OMITTED] T1073.061


</pre></body></html>
